<html>
<title> - COMBATING HUMAN TRAFFICKING: FEDERAL, STATE, AND LOCAL PERSPECTIVES</title>
<body><pre>[Senate Hearing 113-455]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-455
 

  COMBATING HUMAN TRAFFICKING: FEDERAL, STATE, AND LOCAL PERSPECTIVES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



	                    U.S. GOVERNMENT PRINTING OFFICE

	85-505 PDF                       WASHINGTON : 2014
	-----------------------------------------------------------------------
	  For sale by the Superintendent of Documents, U.S. Government Printing
	  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
	         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
           Blas Nunez-Neto, Senior Professional Staff Member
                    Holly A. Idelson, Senior Counsel
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
          William H.W. McKenna, Minority Investigative Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Chiesa...............................................     3
    Senator Heitkamp.............................................     5
    Senator Ayotte...............................................     5
    Senator McCain...............................................    22
Prepared statements:
    Senator Carper...............................................    55
    Senator Chiesa...............................................    57
    Senator Heitkamp.............................................    59

                               WITNESSES
                       Monday, September 23, 2013

Hon. Alice C. Hill, Chair, Blue Campaign, U.S. Department of
  Homeland Security, and James A. Dinkins, Executive Associate
  Director, Homeland Security Investigations, Immigration and
  Customs Enforcement, U.S. Department of Homeland Security......     8
Anne C. Gannon, National Coordinator for Child Exploitation
  Prevention and Interdiction, Office of the Deputy Attorney
  General, U.S. Department of Justice, and Joseph S. Campbell,
  Deputy Assistant Director, Criminal Investigative Division,
  Federal Bureau of Investigation, U.S. Department of Justice....    10
John J. Farmer, Jr., Senior Vice President and University
  Counsel, Rutgers, The State University of New Jersey...........    34
Suzanne Koepplinger, Executive Director, Minnesota Indian Women's
  Resource Center................................................    38
Lisa Brunner, Program Specialist, National Indigenous Women's
  Resource Center................................................    40
Daniel Papa, Director, Project Stay Gold.........................    43

                     Alphabetical List of Witnesses

Brunner, Lisa:
    Testimony....................................................    40
    Prepared statement...........................................   409
Campbell, Joseph S.:
    Testimony....................................................    10
    Prepared statement...........................................    72
Dinkins, James A.:
    Testimony....................................................     8
    Prepared statement...........................................    61
Farmer, John J., Jr.:
    Testimony....................................................    34
    Prepared statement...........................................    83
Gannon, Anne C.:
    Testimony....................................................    10
    Prepared statement...........................................    72
Hill, Hon. Alice C.:
    Testimony....................................................     8
    Prepared statement...........................................    61
Koepplinger, Suzanne:
    Testimony....................................................    38
    Prepared statement with attachments..........................    91
Papa, Daniel:
    Testimony....................................................    43
    Prepared statement with attachments..........................   412

                                APPENDIX

Posters referenced by Ms. Hill...................................    69
Responses to post-hearing questions for the Record:
    Ms. Hill and Mr. Dinkins.....................................   419
    Ms. Gannon and Mr. Campbell..................................   464

 
  COMBATING HUMAN TRAFFICKING: FEDERAL, STATE, AND LOCAL PERSPECTIVES

                              ----------


                       MONDAY, SEPTEMBER 23, 2013

                                     U.S. Senate,
                           Committee on Homeland Security
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in
room SD-342, Dirksen Senate Office Building, Hon. Thomas R.
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Heitkamp, McCain, Ayotte, and
Chiesa.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. I was going to say the Committee should
come to order, but the Committee is already in order, and we
thank you for gathering with us today.
    I really want to thank Senator Heitkamp, who is en route--
not from North Dakota, but she is, I think, in the building.
She will be here momentarily. But she and Senator Chiesa, both
new Senators, actually recommended that we hold a hearing on
this subject. I do not know if this is something they
coordinated or not. I know Senator Ayotte is a former Attorney
General (AG). All three of them are former AGs from their
respective States. But they have a strong interest in this
issue, and they brought it to my attention and to the attention
of Dr. Coburn, who is Ranking Republican on the full Committee,
and we are very grateful to each of you for coming.
    We have a second panel, I think, that is going to follow
you, and we are going to go ahead and get started. I am going
to ask, since Senator Chiesa is actually filling in for Dr.
Coburn today, he moves from over there to right here, and
Senator Heitkamp, is going to move from over there to right
here. So we will figure this all out, and we will get in our
right seats and get on with the hearing.
    But human trafficking has been described as ``modern-day
slavery,'' and that is because its victims are in some cases
forced to work, including as prostitutes, sometimes in
sweatshops, against their will. Trafficking victims may not be
physically imprisoned, but they are trapped in often hellish
conditions through physical or mental coercion that makes
escape impossible, or at least seem impossible.
    It is easy to think of human trafficking as something that
happens somewhere else--in countries far away from ours that
are suffering through war or maybe poverty. But, sadly, human
trafficking is a real and a growing problem all over the world,
including right here at home. And it can be invisible unless
officials and citizens alike are trained to recognize the
telltale signs.
    By some measures human trafficking is the second most
significant criminal enterprise in the world, generating an
estimated $32 billion in revenue. To me that is stunning, and
maybe to you as well. The statistics for one type of human
trafficking--prostitution--are particularly shocking. I am told
that every year more than 100,000 children in the United States
are forced into prostitution. The average age of entry into
prostitution is roughly 13 years of age. In fact, I understand
that there have been reports of teenage girls forced to work as
prostitutes by gangs and literally branded with tattoos to mark
them as property.
    While the word ``trafficking'' sounds like a crime that
involves moving people, the truth is that human trafficking
does not necessarily involve victims smuggled in from other
countries--or even other States. Human traffickers prey on
vulnerable people in our own communities. While some victims
are undocumented immigrants, many are teenage runaways or other
vulnerable individuals born and raised in the United States.
    Just last year, in Wilmington, Delaware, a man was found
guilty of forcing a 15-year-old girl to work for him as a
prostitute. And just last month, the Federal Bureau of
Investigations (FBI) conducted a 3-day operation in 76 cities
that led to the rescue of 105 children who had been trafficked
into the commercial sex trade. Two of the children were found
in the Philadelphia suburbs, roughly 20, 25 miles from my home.
    This issue reminds me of a passage from the Book of Matthew
in the Bible. Some of you have heard it. I guess many of you
have heard this. This is the reference to ``the lease of
these.'' But when Jesus describes how God looked on those who
perform acts of kindness for the disadvantaged by saying ``in
as much as you did it to the least of my brothers, you did it
to Me.'' And these vulnerable people being preyed on by human
traffickers are clearly ``the least'' of our brothers and
sisters, and I believe that we have a moral responsibility to
make sure that they are being protected.
    I am always looking to understand the underlying causes of
things so that we are not just focusing on treating the
symptoms. We are pretty good at treating symptoms. We do not
always go after the underlying causes. In the case of human
trafficking, I am hoping that our witnesses today can help us
to better understand three key things:
    First, we need to know what drives human trafficking so we
can be more effective at stopping it.
    Second, we need to get better at identifying victims so
that we can more successfully intervene and remove them from
their terrible situations.
    And third, and last, we need to better identify potential
victims of trafficking so that we can intervene before they are
ensnared and offer them effective treatment or services before
they fall prey.
    Today we are fortunate to have two panels of witnesses who
can help us understand the current efforts underway at the
Federal, State, local, and tribal level to attack human
trafficking head on.
    On our first panel, we have four senior witnesses from the
Departments of Justice (DOJ) and Homeland Security (DHS) who
will speak to how the Federal Government has made human
trafficking a priority for law enforcement and hopefully
address some of the underlying causes.
    On our second panel, we have four witnesses who will speak
to how human trafficking impacts our communities and how State
and local officials--and even school children--are tackling
this problem.
    I said just before Senator Heitkamp joined us how much I
appreciate both of them suggesting that we hold this hearing.
Dr. Coburn is not going to be able to join us at the hearing,
and Senator Chiesa has grudgingly agreed to sit here and sit in
as the Ranking Member of the full Committee.
    We have been joined by Senator Ayotte, and it is
interesting. I am the only person who is not a former AG. They
are all recovering Attorney Generals. [Laughter.]
    It is probably not a coincidence since they are all here
and they have an intense interest in this because of their
roles as law enforcement officers. But we are delighted that
you are here, and we are going to start off with our friend
from New Jersey who is sitting in for Dr. Coburn as the Ranking
Member. And I am going to ask if Senator Heitkamp would like to
speak for a while, and to also offer that to Senator Ayotte, if
she would be interested in saying anything. You do not have to.
If you would like to, feel free. Senator Chiesa.

              OPENING STATEMENT OF SENATOR CHIESA

    Senator Chiesa. Thank you, Mr. Chairman. Thank you for
convening this hearing. Thank you for your leadership of this
Committee. And thank you for your leadership on the issue of
human trafficking.
    As the Chairman said earlier, human trafficking should be
called exactly what it is: ``modern-day slavery.'' It is a
plague on our Nation and the world. It is, to put it bluntly, a
crime against humanity. It is a crime against the dignity of
every person who is victimized by the ruthless criminals who
trade in human beings. And it is a crime against society. As
Dr. King said, ``injustice anywhere is a threat to justice
everywhere.'' And it is happening, not just in some foreign
land; it is happening here, in our own country. Indeed, it is
past time--to put an end to it.
    We must not be content to make just a dent in human
trafficking. We must do everything we can do to abolish modern-
day slavery from our country and around the world. This is an
ambitious goal, but not an impossible dream. We must commit
ourselves to ending the nightmare that the millions of victims
of human trafficking are living every day. Because none of us
would give up our freedom for even a day, all of us must
dedicate ourselves to ensuring that no one else suffers that
fate.
    There are more people in slavery around the world today
than at any other point in our history. As many as 27 million
people around the world are being held in bondage, forced to
work in unsafe, degrading, and inhumane conditions. That is the
equivalent to 3 times the entire population of New Jersey or 30
times the entire population of Delaware. And an estimated
100,000 of them are right here in the United States. Deprived
of their liberty, subject to unspeakable abuse, the victims of
human traffickers cry for help. But, too often, their cries are
unheard. Today in this hearing we are giving them a voice. We
are hearing their pleas for rescue and for freedom. And most
important, we are committing ourselves to answering their
cries.
    The war to eradicate human trafficking must be fought on
many fronts. It requires the concerted, sustained efforts of
law enforcement--Federal, State, and local. Intergovernmental
cooperation is also essential to success. It requires
legislators at every level to provide the resources that law
enforcement needs to sustain an effective effort to bring human
traffickers to justice. And it is not adequate to provide just
enough resources to fund a limited effort. Without dedicated
resources there cannot be a dedicated effort. It requires
lawmakers to make changes to the laws that allow human
traffickers to sell their victims with impunity. Modern slaves
are no longer auctioned in the public square. They are sold on
the Internet and on the back pages of newspapers. Human
traffickers, and the publishers who take their advertisements,
hide under the cloak of the First Amendment even though the
First Amendment was never intended to protect criminal
enterprises.
    Eliminating human trafficking requires the active
involvement of concerned citizens working together to raise
awareness about this terrible problem and advocate change.
Modern-day slavery exists in the shadows, but it leaves clues
to its existence that informed citizens can recognize and call
attention to. And it requires the close cooperation of Federal,
State, and local governments. We must work together to uncover
the crime where it exists, prosecute the criminals to the
fullest extent of the law, and assist the victims so they are
not twice victimized--first by their captors and then by the
system that often treats the victims as criminals themselves.
    As an Assistant U.S. Attorney and as the Attorney General
of New Jersey, I was in a position to ensure that we put in
place the dedicated resources to sustain a dedicated effort to
combat human trafficking. But I know that the vast majority of
law enforcement agencies across the country and at every level
find themselves limited in their efforts by the limitations on
their resources. To our witnesses today, I ask you to be very
candid in your assessment of where we stand in the fight
against human trafficking and to tell us exactly what more we
need to do to bring about its eradication.
    We have seen over the years effective, short-term efforts
to combat human trafficking in places where it seems to grow
overnight and disperse just as quickly. International sporting
events, such as the Super Bowl--which is being played in New
Jersey this February--often attract huge numbers of human
traffickers. And in New Jersey, we are seeing a coordinated
effort to let human traffickers know that they are not welcome,
and that if they decide to bring their evil trade to our State,
they will pay a heavy price.
    But as important as such efforts are, they are just part of
the solution and they are temporary in nature. For human
traffickers, there is no off-season. And for their victims,
there are no bye weeks or time-outs. Their captors exploit them
day in and day out for as long as they can.
    Mr. Chairman, I am very much looking forward to the
testimony of our witnesses today. I want to again thank you for
conducting this hearing today.
    Chairman Carper. You bet. I want to thank you. We want to
thank you and certainly Senator Heitkamp for suggesting that we
do it and encouraging us in a very strong and forceful way.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, Chairman Carper, and I
want to once again reiterate how much we appreciate the
opportunity to bring this level of attention to a problem that
I think is way too often in the shadows of our society.
    I am joined, I think by no small coincidence, by former
AG's as we look at victimization and as we look at the
challenges of providing services to provide effective
enforcement of this kind of act. But we desperately need to
take this problem out of the shadows.
    We need to identify what the causes are, as the Chairman
has said, but also what we can do to provide an effective
deterrence to make this our shock value of this problem, we
need to have that shock value reflected in our prosecutorial
system. We need to make this one of our highest priorities,
because as the Senator from New Jersey has said, this is, in
fact, human slavery. There is no other way to, I think,
identify it. There is no other way to talk about it. And I
think way too often we think about this problem as a matter of
the sex trade, but yet we know it even goes beyond that. We are
looking at trafficking in domestic workers, and these are
people who are not here as a result of which is a completely
different issue. They are here without any activity on their
own. They are here because they are providing a source of
revenue. They are being treated as a commodity, not a human
being, and we are not that society.
    And so, Mr. Chairman, I look forward to the testimony. I
look forward to hearing not only what the problem is, but what
the solutions are and how we can move forward in a very
bipartisan way, as you see the panel up here today, to identify
a path forward to prevent this horrible activity from occurring
within our borders.
    Thank you, Mr. Chairman.
    Chairman Carper. Senator Heitkamp, thank you, and again,
thank you very much for your strong encouragement of me.
    Senator Ayotte, you are here. I know this is something you
care about, and, please, if you want to say a few words, feel
free.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you. I want to thank you, Chairman
Carper. I want to thank Senator Chiesa and also Senator
Heitkamp. We do share, having been former Attorneys General and
I think seeing what a horrible crime this is of human
trafficking in each of our States.
    I also want to point out, as Senator Chiesa has, that human
trafficking is obviously an international problem and an
international crime. And, in fact, one of the problems with
human trafficking is that it is used to fund terrorism around
the world.
    So today we are going to be talking about domestic human
trafficking, and it is absolutely horrific what happens to
victims of human trafficking. And they are treated like things
instead of people, and that is so wrong. So we need to do
everything that we can to learn from you about how can we be
more effective in allowing these vulnerable victims to come out
of the shadows, to properly enforce the crimes, and make sure
that we have the right laws in place. And, frankly, we need to
send a message that the Federal Government and State
governments are working together, that we are not going to
tolerate human trafficking in our country, and that we are
going to make sure that victims are treated with dignity and
respect and that we prevent future victims from falling prey to
such horrific crimes.
    And I will also say that we know the act of trafficking
itself is a horrible crime, but it often fuels other criminal
activities. And so we would like to hear from you today what
other criminal activities are being fueled by human trafficking
and how do we make sure that we come down on those criminals as
well as those types of activities that are actually encouraging
more trafficking rather than making sure that we stop these
types of crimes.
    So I thank all of our witnesses for being here, and most of
all, I want to thank my colleagues for holding such an
important hearing, and I look forward to working with all of
you together on a bipartisan basis to address a problem that
should not exist in the United States of America.
    Chairman Carper. Senator Ayotte, thank you. And thanks a
lot for joining us today. A lot of our colleagues are not here.
We have no votes today, and so some may wander in during the
course of the afternoon, but the folks that are here convening
this hearing care deeply about this issue and want to make sure
we address it.
    I am going to take a moment to introduce each of our
witnesses on the first panel and then later the second panel.
But our first witness is Ms. Alice Hill, who I think was one a
judge. A superior court judge in L.A.?
    Ms. Hill. Yes, Los Angeles Superior Court.
    Chairman Carper. All right. Should we call you ``Judge''?
Do people still call you ``Judge? ''
    Ms. Hill. Occasionally they do, but I will take ``Alice.''
I will take anything. That is fine. Thank you.
    Chairman Carper. I had 1 day last week when somebody called
me ``Congressman,'' somebody called me ``Governor,'' somebody
called me ``Senator.'' And then I got a phone call from my 23
year old son Ben, who called me ``Captain.'' He likes to call
me ``Captain.'' I said, ``At ease, sailor. At ease.''
    Our first witness is Ms. Alice Hill, Senior Counselor to
the Secretary of Homeland Security and Chair of the Blue
Campaign, which we will be hearing about today. Before joining
the Department in 2009, Ms. Hill served as a Los Angeles
Superior Court Judge and as a Federal prosecutor in the Los
Angeles United States Attorney's Office. Before her career in
public service, Ms. Hill was a lawyer in private practice in
Paris, France.
    Our next witness is Jim--do you go by James or Jim?
    Mr. Dinkins. Jim.
    Chairman Carper. Jim Dinkins, Executive Associate Director
of Homeland Security Investigations (HSI) for U.S. Immigration
and Customs Enforcement (ICE). As the Director, Mr. Dinkins has
direct oversight of ICE's investigative and enforcement
initiatives and operations. Prior to assuming his current
position, Mr. Dinkins held a number of leadership positions
within ICE, including Special Agent in Charge for Washington,
DC, and Baltimore. Mr. Dinkins began his law enforcement career
with the U.S. Customs Service in 1986.
    Our third witness is Anne Gannon. She is currently the
National Coordinator for Child Exploitation Prevention and
Interdiction at the Department of Justice. Prior to holding
this position, Ms. Gannon served as an Assistant U.S. Attorney
in the Central District of California for 9 years where she
coordinated child exploitation investigations and prosecutions.
In 2009, she was named one of the top women litigators in
California for her work combating child exploitation. Ms.
Gannon began her career as a law clerk to a U.S. district court
judge in Arizona. Who was that judge, do you remember?
    Ms. Gannon. Yes; Judge Raner Collins in Tucson.
    Chairman Carper. All right. I do not know if that somebody
who rings a bell with our colleague here from Arizona or not,
but he probably had something to do with that guy getting to be
a judge. You never know. [Laughter.]
    Our final witness is Mr. Joseph Campbell, Deputy Assistant
Director for the Criminal Investigative Division at the Federal
Bureau of Investigations. He is responsible for national level
leadership of complex financial crimes, public corruption,
civil rights, and criminal investigations. Mr. Campbell has
held a variety of leadership positions within the FBI and began
his career at the Bureau in 1990.
    It is my understanding that only Ms. Hill and Ms. Gannon
will be providing oral statements for the panel, so we will
begin with Ms. Hill and then move to Ms. Gannon. And as
questions come along, gentlemen, you will be invited to join in
that.
    Before you speak, let me just say a number of years ago--I
think I was in the Senate, so it would have been in the last 12
years--I was on an Amtrak train heading north to home,
something I do almost every day going back and forth. And I ran
into one of my former colleagues from the House of
Representatives. I believe it was John Miller, and I said to
him, ``What are you doing these days?'' And he said, he worked
at the State Department, maybe, and his principal focus was
human trafficking. I do not know if it is someone you have ever
worked with or knew, but he said----
    Senator McCain. Human rights.
    Chairman Carper. Pardon me?
    Senator McCain. Human rights.
    Chairman Carper. There you go, human rights. But, anyway,
he said it is a big issue. This is a big issue. And he said
even then that it is something I ought to think about and focus
on as well. So I have thought about it for a while. We are
really glad that you all are here. Your full testimony will be
made part of the record, so feel free to summarize it as you
wish. And I think at least one of you may have some video for
us to see as well. Judge Hill.

 TESTIMONY OF THE HON. ALICE C. HILL,\1\ CHAIR, BLUE CAMPAIGN,
  U.S. DEPARTMENT OF HOMELAND SECURITY, AND JAMES A. DINKINS,
EXECUTIVE ASSOCIATE DIRECTOR, HOMELAND SECURITY INVESTIGATIONS,
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF
                       HOMELAND SECURITY

    Ms. Hill. Thank you very much, Chairman Carper, Ranking
Member Chiesa, and Members of the Committee. The Department of
Homeland Security welcomes and appreciates the opportunity to
speak with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hill and Mr. Dinkins appears in
the Appendix on page 61.
---------------------------------------------------------------------------
    The men and women of DHS are dedicated to combating the
heinous crime of human trafficking. The Department's Blue
Campaign coordinates and unites the Department's work.
    Before discussing specific initiatives of the Blue
Campaign, I would like to show you a short public service
announcement (PSA) that illustrates what the Senators have been
speaking about: That human trafficking occurs in the United
States and that there is a need for the public to open its eyes
to trafficking victims hidden in plain sight. We will play this
now.
    [Videotape played.]
    This is an example of our attempt to engage the public in a
conversation about what is occurring here in the United States.
As has been mentioned, traffickers use force, fraud, or
coercion to lure their victims and force them into labor or
commercial sexual exploitation. As Chairman Carper and Senator
Heitkamp noted, it is important to distinguish trafficking from
smuggling. The two are often confused, and certainly in our
Department, given our authorities, we want to make clear that
there is a difference. Human trafficking is exploitation based
and does not require movement. Smuggling is movement based
across our borders illegally.
    I want to share with you the story of a girl named Shyima
Hall. Shyima's parents sold her into slavery when she was 8
years old. She was smuggled into the United States when she was
10 years old. She worked as a domestic servant in Orange
County, California, 16 hours a day, scrubbing floors, cooking
meals. She was rarely allowed outside. She never visited a
doctor, and she could not speak English.
    When she was 13, a concerned neighbor called in a tip to
law enforcement, and Immigration and Customs Enforcement opened
an investigation. Her captors were prosecuted, imprisoned, and
then deported. Today Shyima Hall is a United States citizen,
and her goal is to be an ICE agent because she wants to rescue
others like her that she knows are hidden in plain sight in the
United States. Shyima's story helps us understand the important
role the government can play in identifying, investigating, and
prosecuting human trafficking.
    DHS is one of the lead Federal law enforcement agencies
engaged in combating human trafficking. Through its Homeland
Security Investigations, DHS is responsible for investigating
and preventing human trafficking, both domestically and
internationally. The U.S. Customs and Border Protection (CBP),
is in a unique position to detect human trafficking on our
borders, as is the U.S. Coast Guard (USCG) on our high seas,
the Transportation Security Administration (TSA) at airports
and mass transit facilities, and the Federal Emergency
Management Agency (FEMA), in disaster areas.
    Our investigatory authority, screening authority, and most
of our assistance programs are authorized by the Trafficking
Victims Protection Act (TVPA), and its subsequent
reauthorizations.
    In 2010 DHS launched the Blue Campaign to combat human
trafficking. The Blue Campaign began and continues with no
direct appropriations. It reflects a belief that we can be
highly effective when we work collaboratively with our internal
and external partners.
    The Blue Campaign focuses on trainings so that we can
detect human trafficking, as well as outreach so that we can
prevent it from occurring. We have created specialized
trainings and videos to educate State and local and tribal law
enforcement officers at all levels on indicators of human
trafficking. We want law enforcement to know how they can
assist victims to be aware of the full range of resources
available to them when investigating trafficking.
    The Blue Campaign collaborated with the Department of State
to create a general awareness training to educate the public on
the indicators of human trafficking. We produced an
informational video to help first responders identify possible
victims of human trafficking. Just this summer, we entered into
a partnership agreement with the National Association of
Counties (NACo) to work with county personnel to identify human
trafficking.
    In 2012 DHS, along with the U.S. Department of
Transportation (DOT), and Amtrak entered a partnership to train
all 20,000 Amtrak employees and the Amtrak Police Department to
recognize indicators of human trafficking, as well as how to
report suspected cases.
    We also work with the airline industry. CBP recently,
together with DOT, launched the Blue Lightning Initiative, a
training program to educate airline employees on human
trafficking and how to notify law enforcement.
    In fiscal year 2012, the HSI Tip Line received more human-
trafficking tips than ever before--588 tips. We think that our
efforts are working.
    During that same year, ICE HSI investigated more cases with
a nexus to human trafficking than ever before, resulting in
over 950 criminal arrests, 381 convictions, and seized assets
of more than $1 million. This year, we are on pace to exceed
last year's record numbers, having already initiated 940 human-
trafficking investigations.
    We take a victim-centered approach in our investigations.
We have victim assistance specialists across the ICE offices
all over the United States. We have also expanded our Forensic
Interviewing Program so that we have specially trained
personnel to conduct the important interviews with the victims.
    One disturbing trend we have encountered is increased gang
activity. This has been observed right here in Washington, D.C.
ICE, in collaboration with the Northern Virginia Human
Trafficking Task Force and our Federal partners, recently
investigated and successfully prosecuted cases where MS-13 gang
members recruited girls as young as 12 years old from our
schools, on the street, and through social media into sex
trafficking.
    DHS, through its U.S. Citizenship and Immigration Services
(USCIS) and ICE, provides immigration relief to eligible
foreign trafficking victims. Immigration relief options assist
law enforcement in stabilizing victims so that they may begin
to recover and rebuild their lives.
    I am proud of what DHS has accomplished, but there is still
so much to do. We are working more every day to expand our
partnerships. We regularly interact with our stakeholders for
new ideas and new innovative ways to combat this crime.
    The posters\1\ that we have here are a great example of
exactly that, and they are available at DHS.gov/BlueCampaign
for anyone to download, print out, or we will give them hard
copies.
---------------------------------------------------------------------------
    \1\ The posters referenced by Ms. Hill appear in the Appendix on
page 69.
---------------------------------------------------------------------------
    The first here says: ``Lured by fairy tale promises, she
learned not every prince is charming,'' picturing a teenage
girl. That relates to sex trafficking.
    The next poster is in connection with labor trafficking. It
states: ``What good is a time card when his freedom clocked out
long ago?''
    And our final poster goes to domestic servitude. It
reflects a person like Shyima enslaved in the home. It states:
``Some prison cells have metal bars, and some have picket
fences.''
    I appreciate the opportunity to represent the Blue Campaign
and DHS before this Committee, and I would be pleased to answer
any questions you may have and work with you to find the
answers to the very important questions that you have already
posed.
    Thank you.
    Chairman Carper. Thank you, Judge Hill. Thanks very much.
Mr. Dinkins, thank you for being here as well.
    Ms. Gannon, I think you are next up. Please proceed.

TESTIMONY OF ANNE C. GANNON,\2\ NATIONAL COORDINATOR FOR CHILD
EXPLOITATION PREVENTION AND INTERDICTION, OFFICE OF THE DEPUTY
  ATTORNEY GENERAL, U.S. DEPARTMENT OF JUSTICE, AND JOSEPH S.
  CAMPBELL, DEPUTY ASSISTANT DIRECTOR, CRIMINAL INVESTIGATIVE
 DIVISION, FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF
                            JUSTICE

    Ms. Gannon. Thank you. Good afternoon, Chairman Carper,
Ranking Member Chiesa, and Members of the Committee. Thank you
for the opportunity to testify today about the Department of
Justice and FBI's efforts to combat the scourge of human
trafficking. As evidenced by the broad spectrum of
investigative, prosecutorial, training, outreach, victim
services, and research efforts by a wide array of components,
the Department is fully committed to fighting human
trafficking.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Gannon and Mr. Campbell appears
in the Appendix on page 72.
---------------------------------------------------------------------------
    Human trafficking is a crime that strikes at the very heart
of the American promise: freedom. Today in this country people
are bought, sold, and exploited like slaves each and every day.
They are trapped in lives of misery--often beaten, starved, and
forced to engage in prostitution or to take grueling jobs as
migrant, domestic, restaurant, or factory workers with little
or no pay.
    The Department and its partners are working hard to
identify and support victims and bring their abusers to
justice. We provide significant resources, training, and
technical assistance to our Federal, State, local, and tribal
partners.
    The FBI's efforts to investigate human trafficking are
coordinated by the Civil Rights Unit (CRU) and the Violent
Crimes Against Children Section (VCACS). The Civil Rights Unit
investigates forced labor, sex trafficking by force, fraud, or
coercion, and the sexual exploitation of foreign minors, while
the Violent Crimes Against Children Section focuses on the
commercial sexual exploitation of domestic children under the
age of 18. Sex-trafficking prosecutions involving children do
not require proof of the use of force, fraud, or coercion.
    This year marks the tenth anniversary of the FBI's most
prominent initiative to combat the growing problem of sex
trafficking of children within the United States. In June 2003,
the FBI and the Department's Child Exploitation and Obscenity
Section (CEOS) joined the National Center for Missing and
Exploited Children (NCMEC) to launch the Innocence Lost
National Initiative (ILNI).
    The FBI and its partners execute Operation Cross Country--a
3-day nationwide enforcement action focusing on underage
victims of prostitution. Our seventh and most recent operation
in July 2013 concluded with the recovery of 105 commercially
sexually exploited children and the arrests of 150 pimps and
other individuals.
    To date, the task forces have rescued more than 2,800
children, and investigations have led to the conviction of more
than 1,400 pimps, madams, and their associates. These
convictions have resulted in multiple life sentences and the
seizure of real property, vehicles, and monetary assets.
    Our Civil Rights Unit investigates trafficking involving
foreign nationals, which is often aimed at recent migrants and
other economically disadvantaged individuals, particularly
women and children.
    Together with our law enforcement partners at DHS,
appearing here today with us, as well as the Departments of
Labor (DOL) and State, we are working hard to combat
trafficking in any form--not only because of the physical and
psychological toll it takes on individual victims and their
families, but also the profits generated by this exploitation
fuel further unlawful migration and organized criminal
activity.
    The Department's prosecution efforts are led by two
specialized units, the Civil Rights Division's Human
Trafficking Prosecution Unit, and the Criminal Division's Child
Exploitation and Obscenity Section, which provide subject
matter expertise and partner with our 94 U.S. Attorneys'
Offices (USAOs) on prosecutions nationwide.
    Taken together, these units initiated a total of 128
Federal human-trafficking prosecutions in fiscal year (FY)
2012, charging 200 defendants. During fiscal year 2012, DOJ
convicted a total of 138 traffickers in cases involving forced
labor and sex trafficking of adults and children.
    The Human Trafficking Prosecution Unit (HTPU) works to
enhance investigations and prosecutions of significant human-
trafficking cases, particularly novel, complex, multi-
jurisdictional, and multi-agency cases and those involving
transnational organized crime and financial crimes.
    DOJ units have continued to lead the six anti-trafficking
coordination teams (ACTeams), in collaboration with the FBI,
DHS, and the Department of Labor. These ACTeams, through
enhanced coordination among Federal prosecutors and multiple
Federal investigative agencies, have developed significant
human-trafficking investigations and prosecutions.
    The Department and DHS have collaborated with Mexican law
enforcement counterparts on the U.S./Mexico Human Trafficking
Bilateral Enforcement Initiative, which has contributed
significantly to restoring the rights and dignity of human-
trafficking victims through outreach, interagency coordination,
international collaboration, and capacity building.
    The Child Exploitation Section coordinates and participates
in training for Federal, State, local, and international
prosecutors and investigators engaged in efforts to enforce
Federal child exploitation laws. For example, in 2013, staff
presented on best practices for investigating and prosecuting
child sex-trafficking cases at a human-trafficking seminar in
California and participated in a crimes against children
training conference located in Vietnam.
    All U.S. Attorneys' Offices established or participate in
human-trafficking task forces and collaborate with private
partners in several ways. Eighty percent of these task forces
include members from a diverse set of nongovernmental
organizations--community groups, faith-based organizations,
victim advocacy groups, academic organizations, medical
professionals, and legal aid offices.
    The Department does more than investigate and prosecute
those who exploit victims of trafficking. For example, the
DOJ's victims specialists and non-government victim assistance
service providers work with human-trafficking victims to advise
them of their rights and to ensure they get the help they need
to address their short-term and long-term needs--such as legal
and repatriation services, immigration relief, housing,
employment, education, job training, and child care.
    In fiscal year 2012, the Department's Bureau of Justice
Assistance and Office for Victims of Crime (OVC) jointly made
awards to seven task force sites to execute a comprehensive
approach to combating all forms of trafficking, including sex
and labor trafficking of foreign nationals and U.S. citizens.
    During fiscal years 2012 and 2013, the Office for Victims
of Crime represented DOJ by serving as a co-chair along with
DHS and the Department of Health and Human Services (HHS) in
the development of the first-ever Federal strategic action plan
to strengthen services for trafficking victims. The plan is
scheduled for release in January 2014.
    The National Institute of Justice (NIJ) has maintained the
most active research portfolio on trafficking in the United
States, making dozens of research awards over the past decade.
Recent awards are tackling the toughest questions asked about
human trafficking, including measuring the prevalence of labor
trafficking, exploring the perpetration of trafficking, and
evaluating best practices in service provision.
    In April 2013, the Attorney General, on a recommendation
from the Defending Childhood Task Force, called for the
formation of the American Indian and Alaska Native Children
Exposed to Violence Task Force. An initial focus will be
actions to improve the Federal response to the needs of
American Indian and Alaska Native children exposed to violence.
This vulnerable population has been identified as being
particularly susceptible to being lured by traffickers.
    On behalf of Deputy Assistant Director Campbell and myself,
we thank you again for the opportunity to testify here today
and would now welcome any questions you may have.
    Chairman Carper. Ms. Gannon, thank you, and, Mr. Campbell,
thank you for joining us as well.
    Before I start the questioning, I just want to make just a
note, a quick note, if I could. Senator McCain's wife, Cindy,
as many of you may know, has been involved in the fight against
human trafficking for some time, both in her own State and as
the co-chair of the Governor's Task Force Against Human
Trafficking or on Human Trafficking. She has worked outside of
her State. She has worked even internationally, I think most
recently with the first lady of Mexico, and I know you are very
proud of her, and would you just convey our thanks to her for
the great work that she is doing, John.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Carper. I want to go back a couple years. The year
I was elected Governor, I said, Why don't we focus this
Administration for 4 years or 8 years, however long I was going
to get to be Governor of Delaware, and just focus on the
underlying causes of why does a kid start school behind, why do
they fall further behind, why do they become disruptive in
classes, why do they drop out, get suspended, expelled, end up
in crime, or dependent on all of us on welfare and that sort of
thing. Why? And we focused really for 8 years on underlying
causes.
    We focused on teenage pregnancies, how to reduce them. I
saw the other day that teen pregnancies are down by half in
this country since 1992, the year I was elected Governor. And
we are encouraged by that.
    We focused a whole lot on parenting training for people,
including people in prison, because almost all of them were
parents. They were not very good parents. They did not have
very good parents either.
    We focused on the value of early childhood education. So we
went after the root causes.
    And what I want to do in my questioning, that is a way of
telegraphing this pitch as I mentioned in my opening statement,
is focus on root causes. In some cases the causes are what
makes the traffickers want to traffic, $32 billion could be
part of the reason, and what makes those who they end up
recruiting or basically pressing into servitude, what makes the
victims willing to do that or unable to escape that. Could we
just talk about underlying causes? We will just start with you,
Judge Hill, if you will, please, and then we will go from our
left to our right. Please, Judge Hill, underlying causes.
    Ms. Hill. Looking at the perspective of the traffickers, I
think for them, unfortunately, this has proven to be a
lucrative form of criminal activity, and it is difficult to
prosecute these cases. The victims are so traumatized, they
have suffered such psychological damage, they have fear for
their children, fear for themselves, their families, that they
are sometimes unable to tell their stories.
    Indeed, when ICE HSI encounters victims in the field, often
they do not recognize that they are victims. They have suffered
such brutalization that they are unable to recognize what has
occurred. And often they are unable initially to testify
regarding what occurred.
    I speak as a former judge and a former prosecutor----
    Chairman Carper. I am going to interrupt you, if I may. Go
back just a little bit before they actually have been
recruited--or pressed into this kind of servitude. Just go back
before that, if you will. How does it get started?
    Ms. Hill. What we know is----
    Chairman Carper. And is there anything that we can do at
that very early juncture?
    Ms. Hill. Certainly what we know is that, with regard to
sex trafficking in the United States of girls and boys, we know
that many of these children have suffered trauma in the home
and have suffered previous sexual abuse. We also know that many
of them are runaways and that the more times--a study in Texas
has shown that the more times a child runs away, the more
likely that they are going to be the victims of human
trafficking.
    So we also know that poverty may drive this crime. We know
that we have individuals who are seeking affection. This is
common for some of our international victims, they ``fall in
love''--I will use that in quotes--ostensibly with their
trafficker. We have seen families where the victim moves in
with the trafficker's family. A child is born to the victim and
the trafficker, and then the child is held by the family, and
the trafficker takes the victim north to the United States in
many instances to be trafficked here.
    So there are a whole host of reasons. I do not think we
have full understanding, but we certainly have some indicators
that help us know what populations are more vulnerable. And one
of them, we are very concerned about what is occurring in our
schools, as is the Department of Education in our work with
them, to make sure that our schools are also not an opportunity
for traffickers who recognize that this is a profitable form of
crime.
    And I will just say, because these cases are difficult to
prosecute, the victims have challenges in coming forward to
tell their story. It makes it an attractive crime because the
deterrence is not there. It is harder to prosecute.
    Chairman Carper. Good. Those are great points. Thank you.
    Mr. Dinkins, do you want to add to that, or take away?
    Mr. Dinkins. Yes, sir, real quickly. One of the things we
have seen with our foreign nationals that come into the United
States and end up becoming victims of sex trafficking or labor
trafficking is those are individuals who are coming to America
to live the American Dream. So they are coming here with some
type of idea that they will get educated or they will work in a
home and get stable employment when really they are coming here
to fall prey to criminals who are seeking to exploit
individuals, gang members who--that is their mode of operation,
to prey on weak people, and they find foreign nationals here.
They do not have the support system of their family. They find
their travel documents are held by their traffickers, and so
they have no place to turn in a foreign country. But ultimately
they came here to live the American Dream.
    And as far as what we have seen, I think we have to also
remember that many of these children, as you have mentioned, as
young as 13 years old, become sex-trafficked. There are
pedophiles that are out seeking them. So there is another
underlying industry that is actually seeking to have sex with a
minor, which is something that we also have to look at, as much
as those who are trafficking them and those who are actually
seeking to have sex with young children.
    Chairman Carper. All right. Thank you.
    Ms. Gannon, underlying causes, please.
    Ms. Gannon. Thank you. Yes, in terms of traffickers,
traffickers view these victims as a commodity. For drugs they
can be sold once. For individuals that are smuggled, they can
be transported once. But a person who is held in a trafficking
situation, whether it be labor or sex, can be used and sold
multiple times. And, unfortunately, everyone from transnational
organized crime to gangs to individual traffickers have
realized this, and they view this as a business, and they use
these victims to gain monetary advantage.
    In terms of the underlying causes for the victims,
unfortunately poverty is an issue that drives people to seek a
better life and to seek economic and employment opportunities
where the traffickers have no intention of complying with the
compensation that they promised.
    In addition, we see victims with no or precarious
immigration status, as my colleague from DHS mentioned, and
that makes them particularly vulnerable and reluctant to
report.
    In addition, we see young girls and boys with a desire to
be loved, who may be, as Judge Hill mentioned, runaways from
the foster care system. And that makes them particularly
vulnerability as well. They may be living on the streets and a
trafficker presents themselves as the first person to show them
security and love, and that person then betrays them as well
and forces them into prostitution or a forced labor situation.
    Chairman Carper. Thanks.
    Mr. Campbell, please.
    Mr. Campbell. Yes, Chairman. I would reiterate what Ms.
Gannon said as far as the children who are homeless, from
disadvantaged homes, or just have low self-esteem. And quite
often we understand that within 48 hours of being on the street
as a runaway, they are quite often approached by traffickers
and lured into the trade with this person who actually says
that they love them, starts to take care of them, brings them
into their home, sort of lures them into the trade itself.
    Some are affiliated with gang members. They might be family
members of gang members, friends of gang members, and the gang
itself is involved in trafficking or becomes involved in it.
And then those people are either lured into it or violently
persuaded to become prostitutes, child prostitutes and so
forth. And in some cases, individuals are simply kidnapped and
forcibly held. And I think it brings home the importance of
training local law enforcement, our tribal partners, community
organizations, school educators, et cetera, as far as
recognizing where this can happen. I am sure many of you know
of stories where children have been lured from so-called
prominent high schools, places that you would know, where your
kids or other kids of your friends go, and it would come as a
surprise to you that kids could be lured from a place like
that. But it happens all the time, unfortunately.
    Chairman Carper. All right. Thank you.
    Again, we have focused for 8 years in Delaware on how do we
strengthen the basic building blocks of a society of families,
and the thought occurs to me, to the extent that we did that in
order to make sure that kids did a better job in school,
started prepared, finished, did not drop out, ended up not
being a burden to the rest of us, not ending up in the criminal
justice system, and we did it by focusing on the basic building
blocks of our society. And I am just reminded here that maybe
that is part of addressing the underlying symptoms.
    I am going to telegraph my next pitch when we come back. In
the National Governors Association (NGA)--I do not know, John,
what it was like in the Attorney Generals Association, but the
National Governors Association, we had a Center for Best
Practices that is like a clearinghouse for good ideas. And I
always used to say to my cabinet, every problem that we are
facing in Delaware, some State has addressed that problem and
figured out how to address it, how to solve that problem. And
when we come back, a question I am going to ask you is: Are
there any other countries out there that we ought to be looking
at to see what they are doing, how they have dealt with the
underlying problems and also the symptoms of those problems?
    Senator Chiesa, you are going to be with us for too short a
time. Senator Chiesa is only here for a limited duration, and
we have very much enjoyed his presence and membership on this
Committee and in the Senate. Again, I want to thank him and
Senator Heitkamp for suggesting we have this hearing. Jeff, you
are recognized.
    Senator Chiesa. Thank you, Mr. Chairman. And thanks to all
of you for being here. I appreciate not only your expertise on
this issue but your passion for it.
    We talk about this horrific act by identifying the people
as property, and that is a concept that is so foreign to
anybody that lives in this country. And one of the things that
is particularly troubling to me is the way certain aspects of
our business community can reinforce this concept, and I will
tell you what I am talking about.
    This February, the Super Bowl is going to be in New Jersey,
and we have been preparing for that for a number of years on a
bunch of security levels for sure--but also because we know
that traffickers follow these international events and we know
that there is an increased demand for it. We saw it in Dallas.
We saw it in Indianapolis. And one of the really troubling
things that we see as a result are web-based companies that
advertise people as property on their websites.
    I have had a chance to review some of these ads, and you
will see children advertised in these ads with obvious signs of
abuse on their bodies. They do not even try to hide it. They
put girls on these ads, young girls on their ads with bruises
all over their bodies that prosecutors and detectives and
agents will tell you are obvious signs of physical and sexual
abuse. And they do not even care.
    And what I want to talk to you about is I understand that
we are not in the business--or I do not believe we are in the
business of regulating speech and content. I have no interest
in doing that. But I do have an interest in talking about
businesses whose business model it is to advertise people as
property. And what I want to ask each of you--and I will start
with you, Judge Hill, and I appreciate the chance to meet with
you last week--what can the Federal Government do with web-
based companies that are engaging in these advertisements that
promote and encourage child exploitation; what can the Federal
Government do to better monitor and take action against these
companies?
    Ms. Hill. This is a challenging area for us, because as
soon as we hone in on a particular advertiser, it is pretty
elusive. They can disappear and reappear in some other format.
So it is a challenge for us on an investigatory basis.
    Certainly we applaud the efforts that are happening in the
private business world of companies saying that they will not
participate in human trafficking, either with their supply
chains or in other methods of simply not having them
participate in this effort at all. And we believe that we need
to continue to educate the American public so that they will
also express similar outrage, as we have with other issues, and
see the change in the public view.
    But at first, we need to have the American public recognize
that there is a problem here in the United States, and,
frankly, in my discussions, as I have gone out, I do not think
that necessarily State and local law enforcement even believe
that there is a problem. And they may not even believe that
these ads would affect their community.
    Once we have had a chance to share with them our training
and our knowledge, almost universally--and this is borne out by
the research of the Department of Justice--there is a
recognition and then there is a heightened scrutiny, and that
is where I think we need to start. We need to have all of our
law enforcement partners recognize that this is a challenge for
us and collaborate and find those best practices that will help
us attack it.
    Senator Chiesa. Thank you. Mr. Dinkins.
    Mr. Dinkins. Absolutely, I think this is an area that we
can all agree on, that we cannot arrest our way out of it. And
I think by educating people, it really bears out the results
that we have seen on the enforcement side, because we are able
to identify, early on, red flag indicators of abuse.
    You are talking about the web-based companies, and this was
not my idea, but we certainly got some good investigative leads
out of it. There was a private institution, a banking
institution, that did just what you did. They searched the
Internet looking for individuals advertising commercial sex on
the Internet. Then, they looked at the same web addresses,
phone numbers, and contact information, to see if they were
advertising overseas in at-risk countries for au pairs or for
employment opportunities in the United States, to do a bait-
and-switch. And, we actually came up with some very good leads
on there. And that is great to create investigations, but the
best way to do it is not have the ads and not have those web
housers housing that type of material in the beginning. And
usually, as Judge Hill mentioned, once we educate private
businesses and web companies, they take action very quickly to
rid themselves--nobody wants to be contributing to human
trafficking.
    Senator Chiesa. Thanks. The same question, Ms. Gannon.
    Ms. Gannon. Thank you. The Department shares your serious
concerns about the use of the Internet to perpetrate these
types of crimes, and particularly against these vulnerable
victims. The Department has had successful investigations and
prosecutions related to online advertisements of minors for sex
trafficking.
    Just 2 weeks ago, I attended meetings where I was informed
about the utilization and leveraging of technology to look for
missing children in these ads, something the Department takes
very seriously.
    As a general matter, any prosecution of a website or an
individual who is purchasing these types of services requires
the government, whether it be State or Federal, to prove beyond
a reasonable doubt that the website operators actually knew or
had reasonable cause to believe that the advertisement was for
a sexual act as opposed to a legal service, and that the
individual depicted in the advertisement in the instance of
minor sex trafficking is under the age of 18.
    We will continue to aggressively combat human trafficking,
whether it takes place online or off, and we are certainly
cognizant of the unique factors that this type of trafficking
advertisements present.
    While our primary focus is on the traffickers of these
victims, because they are primarily responsible for the caused
harm to the victim, we have also engaged the Department in
demand-side enforcement, and through operations we have looked
at the purchasers of these type of sexual services on the
Internet. And in the case of United States v. Jungers out of
the Eighth Circuit, the Department pursued an affirmative
appeal when the district court rejected those charges against a
purchaser, and the Eighth Circuit agreed with the Department
and found that the existing human-trafficking Federal statute
1591 does apply to purchasers of sexual services on the
Internet.
    Senator Chiesa. OK. And I hope you will continue to let
this Committee know about things that they can do the
strengthen your ability to bring those prosecutions, because
they are so important.
    And, Mr. Chairman, if I may have Mr. Campbell also respond
to the same question.
    Chairman Carper. Sure.
    Senator Chiesa. Thank you.
    Mr. Campbell. Yes, Senator. Where these websites are in
some way supporting, according to the criteria of the statute,
human trafficking, sex trafficking, we are certainly going to
work closely with the Department of Justice to investigate and
prosecute those. Some of those companies are more cooperative
than others in regard to that issue, and we continue to work
with them to increase that cooperation and really focus in this
area.
    If I may, I wanted to say something about these special
events. You alluded to the Super Bowl. One thing that these ads
do is demonstrate to us when there might be an increase of
human trafficking, prostitution, et cetera, at these types of
special events. It could be a sporting event. It could be a
large business convention, some other type of event at any
location in the United States. And we see from the
proliferation of ads that there might be an influx of pimps
bringing in their adults and children, because children are
normally embedded also in adult prostitution rings. And in that
case, what we do through our Crimes Against Children
Interagency Task Forces is we begin gathering more intelligence
about where this might occur. We look at social media sites. We
look at the areas, the street tracks where they are being
trafficked. We work through our other sources of information,
even in drug areas and other gang areas to obtain information.
We train our local partners on what to look for as well. We
partner with local community services for them also to be
focused in case we can do a rescue and they can provide
services to them in that event. We use our Victim Assistance
Services as well.
    So it is an important focus area for us, and we are going
to continue to be focused in that area as these events do occur
around the country.
    Senator Chiesa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Carper. You bet.
    Senator Heitkamp, thank you again so much for bringing this
here.
    Senator Heitkamp. Thank you. And thank you, Mr. Chairman.
It is just so critically important that we get on top of this.
    I look at this problem as kind of an hourglass, and Senator
Carper I think has done a great job asking you to think about
all of the potential victims out there and how do we avoid
sending them into the pipeline to continue to be victims. And
we all know that a lot of the runaways that we are talking
about already were sexual assault victims, and that is the
dirty little secret about runaway kids. They are usually
running away from a condition like that.
    Now, we have all the bad guys who would exploit all those
kids. But then we have all the people who serve to be the
customers of the bad guys. And we have learned from our work in
domestic violence that there is a way to begin to have
deterrence against those people who would participate on either
end in terms of--I hate to use the word ``shaming,'' but
certainly before, if this was simply a family matter, it was a
lot easier. But when it became a public matter and a crime
against everyone in this country--which this one is. It is not
just these victims. It is crime against every person in this
country and the sensibility of every person in this country.
    So I want to go to the demand side, and you have already
begun that process of talking about it. But somehow we have to
reduce the demand and the sense that it is OK to do this, it is
OK to hire someone into domestic servitude, it is OK to use a
prostitute, and maybe I do not know her age or his age, it is
OK to run your factory on less than minimum wage, all of that
is OK.
    So I want you all to give me a couple ideas on how we build
better deterrence into this system, and I want to start with
you, Mr. Campbell. I am sure you have horrific stories that you
could tell this Committee of situations, but I want to know
what additional kind of tools we could provide or that could be
provided to law enforcement to investigate the demand side.
    Mr. Campbell. Right. Well, certainly, the types of media
campaigns that we conduct, such as when we did Operation Cross
Country, where we put the word out to the public in regard to
how to look for child trafficking, the vulnerable communities
to look in, and partnering with community agencies and so
forth, and exposing to the public, as you said, the fact that
this does exist and that it is illegal and it is being
vigorously investigated by partnerships of Federal and local
agencies.
    Senator Heitkamp. I understand that may lead to more
investigations and more complaints. But I am talking about
preventing the marketplace from working.
    Mr. Campbell. Yes.
    Senator Heitkamp. We used to talk about publishing the name
of every person who was engaged in spousal abuse. You have the
ten most wanted. I mean, I am trying to get at what is going to
stop people from demanding these services or using the services
of human beings who are trafficks.
    Mr. Campbell. Well, certainly we have named individuals to
the top ten most wanted, in fact, who are egregious offenders
even at an international type scale as a way of exposing
individuals, and we support local law enforcement in regard to
what they do with information that they can use to expose these
individuals as well and put them in local newspapers and that
type of thing.
    But I would respectfully also submit that a vigorous
prosecution of these individuals that is nationally known, that
is very effective, that results in large sweeps of rescuing
victims, arresting pimps, a lot of times either ourselves or
the locals arresting the johns, as they call them, that type of
thing, I would submit that media exposure of that activity acts
as a deterrent as well.
    Senator Heitkamp. Ms. Gannon.
    Ms. Gannon. Thank you. I think your comparison to the
domestic violence situation is very appropriate. Trafficking is
not a private matter. As Judge Hill was talking about the young
girl who was held in Orange County, it was a neighbor who came
forward and reported that. And many years ago, perhaps in a
domestic violence situation people would have turned the other
way and thought that it was not their problem. But through
public awareness of trafficking, we are encouraging people to
come forward when they see something that looks wrong. When
they see a young girl on the street, they might think twice and
call law enforcement and say, this girl is in an area known for
prostitution, she does not look to be 18, she does not look to
be of age. And that would raise particular concern for them.
    The Department has conducted research in this area.
Specifically, the National Institute of Justice commissioned a
study regarding demand-side enforcement and its effectiveness,
and there is a website that provides information on the
effectiveness of those programs as it relates to prostitution
specifically.
    As my colleague from the FBI stated, the Innocence Lost
National Initiative and Operation Cross Country, through that
media attention it does create a dialogue, and hopefully that
dialogue is happening at schools when students read about this
operation, it is happening at the dinner table where people can
talk about it and discuss how this is an affront to the very
basic nature of our country.
    Senator Heitkamp. Ms. Gannon--and I do not mean not to ask
the other witnesses, but I did want to get a specific question
in on Indian country.
    Ms. Gannon. Absolutely.
    Senator Heitkamp. Because of its jurisdictional
complexities, it presents some real challenges, and obviously
Federal officials have a great deal of jurisdiction and are
looked to as the savior.
    I know that you were recently in North Dakota. Thank you
for that visit. And I am wondering if you can offer any
insights about strategies in Indian country that we should be
pursuing.
    Ms. Gannon. Actually, I have not had the opportunity to go
to North Dakota, although I would love to. But specifically
with regard to Indian country, I think there are opportunities
that we have and that need to be addressed. Specifically, I
have been working with members of the Office of Tribal Justice
to increase public awareness, and I know that the U.S.
Attorneys' Offices have been very active and have been looking
to increase their number of Special Assistant United States
Attorneys from tribal prosecutors' offices who are best
situated to be in the community and to work together with the
U.S. Attorneys' Offices to encourage reporting and to
successfully prosecute Indian country cases.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Carper. Did you want Mr. Dinkins and Judge Hill to
respond? If you do, go ahead. Then I will recognize Kelly if
she comes back and John if she does not.
    Senator McCain. Go ahead.
    Chairman Carper. Go ahead.
    Senator Heitkamp. I mean, I would love to hear the other
two responses.
    Chairman Carper. Please. Just be fairly brief.
    Senator Heitkamp. I do not want to use up all my time.
    Chairman Carper. Just be fairly brief. Thanks.
    Mr. Dinkins. Reducing the demand, as you suggested, I think
is a key. I think that having strong sentences, which we have
seen, for servitude-type cases has been very powerful and puts
folks on warning.
    It is probably a little more challenging when it comes to
the commercial sex environment, particularly if it does involve
children. As I mentioned earlier, that is a social illness that
unfortunately is too common. And I do not think that even
sending pedophiles away for 30 years will prevent another
pedophile from possibly taking action. So I think that we need
other avenues for treatment and to deal with that type of
issue.
    But definitely the heavy sentences, we are seeing life
sentences in some cases for----
    Senator Heitkamp. I do have a question, Mr. Dinkins,
because I was one of the leaders on civil commitment of sex
offenders, many of whom are pedophiles, repeat offender
pedophiles. Have you seen anything coming out of those
treatment programs that would encourage the Department or
encourage us to believe that this is a treatable problem?
    Mr. Dinkins. I am not really that suited to respond but I
am very skeptical that this is a treatable problem.
    Ms. Hill. I would like to address the demand-side question.
The National Association of Attorney Generals approximately 2
years ago started their four-pillar campaign, and one of the
pillars was to address the demand side.
    As all you former Attorney Generals are well aware, much of
this prosecution occurs in the State courts. There is an
estimate that 95 percent of criminal conduct is addressed in
the State courts.
    One of the things that we have been working on at DHS,
given my prior background as a State court judge, is to educate
the judges. I believe that when I was on the municipal court,
there were victims of human trafficking coming through my
courtroom as defendants. I believe that they were pleading
guilty to prostitution charges. I can remember someone sitting
in the back, the pimp, staring me down, and the prostitute. But
I simply did not understand the dynamics of what was occurring.
I did not know that person in all likelihood could not enter a
voluntary plea because they were being coerced into
prostitution.
    This is an area where the judges need to be educated, as
they were with domestic violence. They were taught about the
cycle of violence and why a victim would recant her testimony
or his testimony at trial. Similar education is needed here to
help address the issue of victims being revictimized through
our court system. I think that will also help drive the
discussion on how the State courts should address the demand
side, particularly for sex trafficking.
    Chairman Carper. Thank you. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman.
    At least six departments and agencies are authorized to
receive $127 million in funding to combat human trafficking. Of
that $127 million, $21 million is for investigations and
prosecution of human trafficking in the United States. Maybe
the witnesses could provide for the record what that $106
million that is not spent for investigations and prosecution is
spent on. So if the witnesses would provide for the record what
their various agencies spend and on what, I would be very
interested.
    Ms. Hill, was that you in that film there?
    Ms. Hill. No, it was not me.
    Senator McCain. It is someone who looked a lot like you. I
know about advertising. That is not a very good message. That
showed two people bumping into each other and spilling their
lunch. If you really want to have a message that will strike
home to people, show the young lady that Ms. Gannon was talking
about, show the people that have been victimized in a way that
makes us so repulsed that we do not even want to think about
it. That has been the most effective ads on things like
smoking.
    I do not know how much you spent on that, but it is a
muddled message. People knocking each other down while having
lunch is not a very effective message. I hope you will review
it. And there are enough compelling stories associated with
this horrible crime that I think you could get the message
through a lot more effectively.
    Mr. Dinkins, how strong is the linkage between drug cartels
and human trafficking that are operating across mainly our
southern border?
    Mr. Dinkins. There is definitely a linkage. While not all
drug-trafficking organizations that we have seen in Mexico and
throughout the United States are engaged, we definitely have
seen some trafficking organizations, drug-trafficking
organizations involved in both human smuggling as well as human
trafficking.
    Senator McCain. Did you see the July 31st Time magazine
article, ``Mexican Drug Cartels' Other Business: Sex
Trafficking,'' that pointed out particularly that Mexican
cartels like the Zetas have become heavily involved in the
human-trafficking business from Mexico?
    Mr. Dinkins. I definitely have seen that many of the
Mexican drug-trafficking organizations have morphed into more
organized crime. They are willing to make money in any way that
they can, sir.
    Senator McCain. Well, you have seen it. How serious is the
problem?
    Mr. Dinkins. It is drug smuggling, as well as human
trafficking, is very significant.
    Senator McCain. Well, the subject of this hearing is about
human trafficking.
    Mr. Campbell, what evidence have you seen?
    Mr. Campbell. Yes, well, as Ms. Gannon mentioned in her
statement, we have the bilateral agreement with Mexico, and the
purpose of that then is to share information and work against
those cartels in all of the criminal activities that they are
engaged in. And certainly this is an area of primary focus for
the FBI.
    Senator McCain. And have you seen it grow larger? Less? The
same? What trends are you seeing on that? The information we
have is that organizations like the Zetas originally were
simply in drug trafficking, and they have branched out into
other areas, including human trafficking, including money
laundering and some other activities. Have you seen an increase
in human trafficking across the Mexican border by the cartels?
    Mr. Campbell. Senator, I do not have the information right
now on the specifics of the growth of human trafficking related
to----
    Senator McCain. Well, have you got an estimate?
    Mr. Campbell [continuing]. The border. I can provide that.
    Senator McCain. Do you have an estimate?
    Mr. Campbell. I do not, sir. I can provide you some other
information. But I can tell you that human trafficking in
general across the United States is unfortunately a growing
problem. It is trending upward, Senator.
    Senator McCain. Ms. Gannon, one of the disturbing facts of
this horrible stuff is that 95 percent of the young women and
men who are subjected to this have a cell phone, and yet they
never call in to get relief from the terrible situation they
are in. That is because of physical and mental debasement. What
is your take on that?
    Ms. Gannon. There is definitely an element of fear and
retaliation. These traffickers are ruthless in manipulating
their victims and putting fear of physical violence--and
substantiated fear. They beat them, they tattoo them, they hold
them in isolation. And so even if they do have a means of
communication, many are reluctant to come forward.
    I think the way to address that is by increasing public
awareness, getting that hotline out there in the right places,
whether it be truck stops, transportation hubs, so if they are
moving they have a chance to see it; and also the engagement of
community and faith-based organizations. So if that trafficking
victim does go to a juvenile shelter at some point, that person
at the shelter is trained to identify the signs of trafficking,
knows what to do, who the appropriate person at the local
police department or Federal agency is to call, and gives that
victim some assurance that they will be treated with respect;
law enforcement is there to help them, not arrest and hurt
them; and that they can trust them in order to come forward,
and they will receive the victim services that they so
desperately need.
    Senator McCain. The Texas Attorney General said the Super
Bowl is the largest single human-trafficking incident in United
States history. That is a stunning statement. Do you think
maybe we ought to have some of our people on hand, Mr. Dinkins,
during the Super Bowl?
    Mr. Dinkins. Absolutely, Senator. We are actually already
working on that. Both myself and the Bureau have teams
preparing in advance of the Super Bowl to educate the State and
locals, as well as businesses and the non-governmental
organizations (NGOs), to be on the lookout for human
trafficking.
    Senator McCain. Well, if it is the largest single human-
trafficking incident in United States history, you should not
have too much difficulty detecting that, I would think.
    Finally, I am somewhat interested in the six different
departments and agencies that are involved in this. Are you
satisfied with the level of cooperation, Ms. Hill?
    Ms. Hill. I am. I think that there has been a remarkable
partnership among the personnel that are present here, as well
as DHS has entered into partnerships with agencies across the
Federal Government and with the National Association of
Counties. I think that on this issue, the folks that are
involved work remarkably well together. All of us share a
belief that modern slavery has to come to an end. Certainly
there may be minor instances, but in my experience, we have
worked closely together and shared resources, shared ideas,
shared best practices to become more effective. Just in the
time that I have been working on this issue, I have witnessed
this myself.
    Senator McCain. Well, I am glad to hear of your confidence.
I am sorry that since it seems that human trafficking is on the
rise, your dedication has not shown the results that perhaps we
might like to see.
    I thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator McCain. And, again, our
thanks to Cindy for all of her efforts in this regard.
    John and I spent a lot of years in the Navy at about the
same time, actually. He was a hero. I was just a guy who flew
around in a plane. I was lucky enough that we did not get shot
down. But this is an all-hands-on-deck moment. And there is
also a real shared responsibility here. It just cannot be law
enforcement. It just cannot be the Federal Government. It just
cannot be the State government. It just cannot be nonprofits.
It has to be all of us. And John's point is a really good one.
We are spending a fair amount of money, and the question of how
well we are coordinating what we do, and as much as we are
trying to do a good job, everything I do I know I can do
better, and obviously this is something we have to do better as
well, and making sure we are not duplicating, that we are
coordinating, and each of us is playing an appropriate role.
    Senator Ayotte, Recovering Attorney General Ayotte, please.
    Senator Ayotte. Thank you. I want to thank the witnesses. I
wanted to get at the issue to followup on what Senator McCain
was asking about. I was struck, Judge Hill, when I heard you
testify about the numbers from 2012, that these were
improvements on the past, with 950 arrests, 381 convictions,
and $1 million in forfeiture. And that struck me as fairly
small given some of the estimates of what the problem is here.
    How big is this problem in our country that obviously is a
horrific criminal problem? But those numbers, just looking even
from a State Attorney General perspective, I am glad that you
are working really hard to improve them, but I just was really
struck by, given the size of the United States and given the
issues that we have heard about this afternoon.
    Ms. Hill. Good data in this area remains a challenge. There
are a number of efforts, as you have heard, in the Department
of Justice and elsewhere to get good data.
    One caution I would give with regard to the data that I
gave, I am confident that underestimates what is actually
occurring across the United States, and the reason for that is
because prosecutors and judges may not choose to prosecute
cases under a new statute, the human-trafficking statute. It
requires additional proof that they may not need for a rape or
kidnapping charge. It requires proof of forced fraud or
coercion. To prove that, in almost all instances you will need
the testimony of the victim, and sometimes, as we have
discussed, the victim is going to be unable to tell his or her
story in the courtroom.
    So the prosecutors may choose another charge that requires
a lower level of proof, or hopeful that they will get a similar
sentence. They will use their discretion to make sure the
conduct is addressed, even if it is not addressed under the
Federal anti-human-trafficking statute or the statutes that we
now have in close to 50 States.
    I do not think that those statutes are used as widely as we
know the problem is because--and this is based on my experience
as a prosecutor and as a judge--an unfamiliar statute is a
deterrent to the prosecutor and the judge. They want to make
sure that the prosecution, if it is successful, does remain a
successful conviction, and this is probably a little inside
baseball, but for a judge, the most likely place of reversal is
on jury instructions, and the time that will occur was with a
new statute, untested statute.
    So there are built-in deterrents. The Department of Justice
has looked at this as well, in terms of prosecutors, of why
there are not as many human-trafficking convictions. So these
numbers, the trend is positive. The absolute numbers I do not
believe reflect what is actually occurring in the United
States. But I do not have those numbers for you. I can only
share my own experience in how these new statutes play out.
    Senator Ayotte. Do we have the right statute, meaning have
there been any difficulties with the statute itself? Ms.
Gannon, you mentioned the Jungers case in the Eighth Circuit in
which the circuit court of appeals overturned the district
court decision on basically holding the purchaser accountable
under the trafficking statute. So has that been settled, is
there any conflict among the circuits? Is there any issue that
needs to be clarified from us in terms of the Federal statute?
    Ms. Gannon. Just to make sure I was clear, in the Jungers
case, the Eighth Circuit said that the statute does apply to
purchasers.
    Senator Ayotte. Right, but it is obviously one circuit
court of appeals. Is there any conflict there? Or is that issue
fairly resolved in terms of prosecution across the country of
these types of crimes? Because if we cannot prosecute the
purchasers, then we are not obviously going to get at this
crime, because the purchasers need to be fully prosecuted, held
up, and the public needs to understand that those purchasers
are going to be prosecuted, they will be--as my colleague
Senator Heitkamp certainly said, they will know publicly the
crimes that they have committed, because that is how we are
going to discourage this also on the purchasing end. So I just
want to make sure that there are not any legal issues that we
should be aware of.
    Ms. Gannon. No, Senator. There is no conflict among the
circuits with regard to the application of 1591 to purchasers,
and I can tell you that enforcement actions focused on
purchasers, the demand side of trafficking, have occurred
throughout the country. A few years ago, the Justice Department
expanded the Project Safe Childhood Program to include minor
sex trafficking domestically, and there is a very active list
serve among Federal prosecutors about techniques, jury
instructions, how to apply these laws, in addition to the
subject matter experts here in Washington which field calls.
    So we are working to make sure that the prosecutors in the
field know how to use this law and how to apply it
appropriately.
    Senator Ayotte. And one thing that leapt out at me as we
talked about the issue of coordination--and obviously many of
these victims, vulnerable victims, too many of them children--
is part of the group that is coordinating all this, the
Internet Crimes Against Children (ICAC) Task Forces.
    Ms. Gannon. Absolutely.
    Senator Ayotte. Because I had the familiarity of working
with my ICAC Task Force in New Hampshire, and, frankly, it is
just shocking the amount of child pornography and sexual
exploitation that is occurring over the Internet. And so I see
this as obviously a tool that these traffickers could be using
as well.
    Ms. Gannon. Absolutely. The Internet Crimes Against
Children Task Forces are active in this effort as well, and
they are funded and organized through our Office of Juvenile
Justice and Delinquency Prevention, which I should have
mentioned earlier as one of the organizations which really can
address the root causes and reasons why some of these children
find themselves in such a vulnerable area.
    And another nice thing about the task force program in this
instance is it really builds a bridge that has already existed
for many years now between the Federal, State, and local law
enforcement. And so adding trafficking awareness in a way that
already has a structure in which the Department of Homeland
Security and FBI participate in this program can maximize. And
then in my experience as a Federal prosecutor in California,
what happened was I then began speaking with the local district
attorney's office, and so there is coordination as the State
Attorneys General have focused on this issue, the State
legislatures have focused on this issue and passed State laws,
which may be very similar to the Federal laws, or slightly
different, that the prosecutors at that level can also sit down
and have a discussion about where most appropriately to pursue
the case, factoring in everything from the elements necessary
to the possible penalties to what is appropriate for the
victim, the duration of the case. And I engaged in many
conversations with my local prosecutor colleagues.
    So that is an area where the numbers also--I think we are
going to see an increase both in Federal investigations and
prosecutions and as the States continue to engage in this
issue, we will see it in both systems.
    Senator Ayotte. I want to thank all of you, and I know my
time has expired, but one of the things we did when I was
Attorney General is we did an Internet safety booklet that went
into all of our schools, and I did that in partnership with the
ICAC Task Force, getting their advice to see what that should
say. And so I think that is a natural partnership because they
are doing--at the local level, a lot of the partners in the
ICAC Task Force are doing education in the schools in addition
to their law enforcement function of enforcing the laws. So I
am glad to hear that you are working with that task force
because I think that is a natural partner right there. Thank
you.
    Chairman Carper. Senator Ayotte, thank you, and thanks so
much for joining us today and for all that you bring to this
hearing.
    You know what I was thinking? I was thinking, Senator
Heitkamp, about some things you said the other day when you
were in Delaware, talking about the Truth Campaign. I am sure
our Attorney Generals remember not that many years ago, maybe a
dozen or so years ago, the Attorney Generals of our country--
and Senator Heitkamp was one of the leaders in this--all 50
States negotiated a settlement with the tobacco industry to
deter young people from starting to use tobacco, and if they
already started, to encourage them to quit. Remarkably
successful. A remarkably successful effort. And I ended up
being the founding Vice Chairman of the American Legacy
Foundation, which was created out of this effort. And in terms
of a public awareness campaign, literally shaped by young
people, by kids, teenagers, pre-teens who helped shape the
message. It was called the ``Truth Campaign.'' Hard-hitting,
really to the gut, and all kinds of multimedia efforts, a lot
of places like TV shoes, movies, venues that people our age--or
at least my age--would never see. But, boy, it worked with the
kids. I am thinking about best practices and what worked in
terms of reducing young people's use of tobacco, the desire to
find it attractive, incredibly successful.
    The teen pregnancy campaign, I alluded to that earlier,
teen pregnancy rates in this country since 1992 are down by
half. A pretty amazing achievement if you think about it. And
the challenge that is before us in this regard is daunting, but
in terms of maybe some campaigns, teen pregnancy, tobacco use
among young people, that have been remarkably successful
literally in the last decade or two, maybe there are some
lessons we can learn from them.
    I said earlier that I would telegraph my pitch. I said I
was going to come back to you and ask you to look around the
world at other countries. This is a problem not just here but
in a lot of other countries, advanced countries, developing
countries, developed countries. But just think for us out loud
about some best practices in other parts of the world where
they are grappling with this and they are having some success,
either on the supply side or the demand side, please. And,
Judge, would you go first?
    Ms. Hill. I think that we have looked internationally,
certainly, at the Blue Campaign, and I will just explain how we
came up with the term----
    Chairman Carper. And I am going to have to ask you to be
pretty brief, if you would.
    Ms. Hill. Sure. The Blue Campaign, it is a reference to the
United Kingdom's efforts to combat human trafficking, the U.N.
Office of Drugs and Crime Blue Heart Campaign to combat human
trafficking, as well as a reference to the Thin Blue Line.
    We have also entered into bilateral agreements with a
number of nations to work together on capacity-building efforts
with them. All of this similar in other nations, they need to
build their capacity just as we need to build here. And so we
look to their trainings and their other offerings to make sure
that ours make sense.
    Finally, we have entered into an agreement with Interpol so
that we can learn together the best ways internationally to
combat human trafficking.
    Chairman Carper. Good. Thank you.
    Mr. Dinkins, just very briefly.
    Mr. Dinkins. Sure. I am not sure if one country anywhere in
the world actually has found the silver bullet to combat human
trafficking, but----
    Chairman Carper. I like to say there are a lot of silver
BB's. Maybe one of them has--we can pick up silver BB's from
different places.
    Mr. Dinkins. But we definitely are sharing ideas and
practices, and as Judge Hill mentioned, I think a big important
part of what we are doing is for those--making sure that the
weaker countries that do not have that experience, we are
bringing them up to the same level as the rest of the developed
world, and we are actively doing that.
    Chairman Carper. All right. Thanks. Ms. Gannon.
    Ms. Gannon. Yes, we work with the Department of State who
issues an international Trafficking in Persons Report, and that
is a good tool to look at the challenges and successes that
other countries have engaged in to address this issue.
    Our subject matter experts in the Child Exploitation and
Obscenity Section and Human Trafficking Prosecution Unit work
extensively with international partners to address exactly what
you are discussing in terms of best practices, and in
particular, the Child Exploitation and Obscenity Section is
quite active in international trainings and meetings.
    Chairman Carper. All right. Mr. Campbell.
    Mr. Campbell. Yes, we recently had an arrest of a top-ten
fugitive involved in this type of activity in another country,
a lot of cooperation there. We are seeing cooperation from the
Philippines, Thailand, and we work very closely with Interpol
and Europol as well, and we are involved in 40 different
international task forces regarding child trafficking, child
sex tourism, that type of thing.
    Chairman Carper. All right. Thank you.
    Senator Chiesa? And I mentioned to Senator Chiesa and
Senator Heitkamp that I would like for us to try to limit
ourselves to 5 minutes in this round, so it is in your hands.
    I am going to take a quick phone call, and I will be right
back.
    Senator Chiesa [presiding.] Thank you, Mr. Chairman. We
have talked about how we are continuing to evolve as a law
enforcement community and as legislative community in trying to
educate ourselves about human trafficking. Part of that
obviously is reminding people every chance we get that we have
modern-day slavery, because that is something that shocks
people when they hear it and they hear the statistics and they
hear about the numbers that we have in this country and in
other places.
    So what I would like to talk to each of you about now is
one of the issues we tried to deal with in New Jersey was when
we come on a crime scene, our law enforcement officers are
expertly trained to identify it, take it down, and then take
steps to prosecute whoever might be involved in that criminal
activity.
    One of the things we started to ask them to do was to dig a
little deeper and find what may not be obvious at first glance.
I know that you have talked a lot about the sharing of
information. Some of the questions went to that. I would like
to know, as a result of the tremendous amount of knowledge that
you are beginning to buildup, how much of that is shared with
State and local law enforcement and through what methods is it
being shared? I will start with Judge Hill.
    Ms. Hill. At DHS, one of our primary focuses is law
enforcement. So one of the very first products we produced
after we had reviewed the academic literature was a
computerized training for State and local law enforcement
specifically designed to capture in video segments, for
example, a brothel scene or a traffic stop or encountering a
young teenager on the street dressed in a manner and in a place
where you might believe prostitution was occurring, to alert
the officers to what the indicators are from those scenes that
could lead you to believe that trafficking is possibly
occurring, and then what should you do based on that.
    We also have trained them on immigration relief because we
know that our foreign-born victims will be interested in
immigration relief, and it will help us as we investigate the
case, help stabilize that victim.
    So we have then worked internationally as well with the
capacity building that Mr. Dinkins has referenced, so we go to
many conferences, including the National Native American Law
Enforcement Association, just last week in Las Vegas DHS was
represented and presenting.
    So wherever we can, we try to share our materials and also
live programming to raise the level of understanding of
trafficking.
    Senator Chiesa. Thank you. Mr. Dinkins.
    Mr. Dinkins. I will point out a couple different--because I
do think this is a key for our successful investigations. Our
State and local partners and tribal partners, are really the
front line in detecting so much of the criminal activity. So,
we do both formal training, for example in their different
academies, but also informal training during roll call in the
mornings, and afternoons at the change of shifts, recognizing
that not everybody is going to go back through the police
academy. So we do it, both informally and formally with our
State and local law enforcement partners.
    But also, I will point out another way that we have been
able to hit a large number; that is through associations, like
the Association of Certified Anti-Money Laundering (ACAMS)
investigators; they are over 15,000 investigators from
different financial institutions. We created webinars working
with them to actually educate the investigators and the
financial industry to identify red flag indicators for human
trafficking. So we are doing it on many different fronts, sir.
    Senator Chiesa. Thank you. Ms. Gannon.
    Ms. Gannon. I agree that the coordination with State and
local law enforcement and education and training for them is
vital to combat this issue. The Justice Department's Bureau of
Justice Assistance and Office for Victims of Crime, which are
two grant components have been very engaged in this issue. They
have provided grants to State and local law enforcement task
forces, which are in addition to the FBI task forces, to
examine comprehensive ways to combat this issue and provide
them with the training and best practices.
    In addition, the Office for Victims of Crime provides
training on how to respond to victims of trafficking, which is
an integral part to addressing this issue because a victim who
is receiving the services that they need can assist with the
prosecution of the offender. And so from July 1, 2011, to June
30, 2012, these grantees trained over 28,000 professionals
representing schools and educational institutions, faith-based
organizations and religious institutions, victim service
providers, in addition to State, tribal, and local law
enforcement. So we are doing that both through the FBI and the
U.S. Attorneys' Office task forces, but also through these
grant programs.
    Senator Chiesa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Carper [presiding.] You bet.
    Senator Heitkamp.
    Senator Heitkamp. Probably just to talk to you, Ms. Gannon,
about the kind of challenges of working with these victims and
the difficulty that we have.
    One of the things that we did in domestic violence is we
began to prosecute cases without victim testimony. It was a
huge training effort, and it changed the way we looked at these
cases. And one thing that the judge mentioned is the difficulty
in having traumatized victims provide testimony. If our
prosecutions are going to rely on victim testimony, we are not
going to be very successful.
    And so what strategies has DOJ advocated for to get beyond
relying on victims and to do investigations and prosecutions
that are not victim centered?
    Ms. Gannon. The Department, through its Project Safe
Childhood coordinators--and each U.S. Attorney's Office also
has a civil rights/human trafficking prosecutor coordinator,
and they receive training and information via e-mail list
serves that provide them the best practices. So an essential
part of a successful prosecution is finding the corroborating
evidence.
    Senator Heitkamp. Of the number of prosecutions that you
have had under the Federal anti-trafficking law, how many of
them were done without a victim?
    Ms. Gannon. I apologize, Senator. I do not have that
information.
    Senator Heitkamp. It would be really interesting to find
out because I think that if we are just always going to rely on
repairing a victim, you are going to miss the statute, No. 1.
And, No. 2, you may never get victim testimony for a whole lot
of reasons that involve threats against family, threats against
them. I mean, live in their world and you know why they are not
cooperating with you. They have been told since they were this
high that you are untrustworthy and that no one cares about
them and only that person who trafficked them cares about them.
And so, there is just a whole lot of things that we need to do
better.
    We focused a lot on the sex trade and sex trafficking, but
I want to ask you, Ms. Gannon, what industries are particularly
vulnerable to human trafficking on the labor side, and what are
we doing to address those industries and making the users aware
that they may, in fact, be buying shoes or may be eating at a
restaurant that has a notorious reputation for using human
slaves.
    Ms. Gannon. If I just may answer your prior question,
technology presents some challenges, but it provides a lot of
opportunities, and I think that the Federal law enforcement
community and prosecutors are looking to technology. A question
was asked about cell phones, correctly, forensically examining
those cell phones that a victim may have to look at text
messages corroborating their information.
    Senator Heitkamp. Or social media.
    Ms. Gannon. Social media. Culling through all of the
information and evidence seized to build a successful
prosecution and to support the victim is something that we
absolutely look into and are concerned with.
    In terms of labor trafficking, just last year there was an
Executive Order (EO) addressing the issue of human trafficking
and government contracting domestically, and that issue has
also been addressed internationally as well. And we are working
with the Senior Policy Operating Group, which is a group of
many agencies across the government who meet and discuss
important issues, and one of them is identifying industries.
The Department of Labor is working on this issue and has issued
a list of initial industries, and we are looking at that in
order to maximize the effectiveness of the Federal Government's
efforts to remove human trafficking from its supply chain.
    Senator Heitkamp. Just a point here. How helpful would
immigration reform be to dealing with the labor issue on
trafficking?
    Ms. Gannon. Senator, at this time, I cannot comment on that
but would be happy and the Department would be happy to provide
you with any technical assistance on pending legislation.
    Senator Heitkamp. Because it would seem to me that if
people knew that there was a path forward for coming out of the
shadows, there would be less of this kind of activity.
    Ms. Gannon. Well, that is something that we do focus on in
terms of the immigration relief that is available through the T
and U visa programs that are options for victims of trafficking
to obtain status in the country, along with Continued Presence.
So education is occurring on that in terms of specific
immigration status for trafficking victims.
    Chairman Carper. Senator Heitkamp, the guy sitting next to
you over there, John McCain, who just had to leave us, but John
has worked a whole lot on comprehensive immigration reform. And
when you asked that question, I thought immediately underlying
causes. That could actually help address one of the underlying
causes. That was just a great point.
    Sometimes when we do these hearings, if we have time, I
like to ask our witnesses to take maybe half a minute, just no
more than half a minute, just go back--you gave opening
statements. I am going to give you a chance to give a closing
statement, and it is going to be a real short one. And just
like one point, maybe just pick one point that you especially
want us to remember to keep in mind that maybe you have said,
that others have said, and part of what we are trying to do
here is to find how do we better coordinate this effort across
government, across our country, but also look for common ground
between statements that you are giving and the testimony you
have given.
    Mr. Campbell, just give us one good takeaway, please. And I
know that there are a lot of them, but give us one.
    Mr. Campbell. I would ask the public that if they suspect
any child sex trafficking or human trafficking or something
just does not seem right, maybe it is related to forced labor,
to please call 1-800-CALL-FBI and report that information.
    Chairman Carper. Say that again?
    Mr. Campbell. It is 1-800-CALL-FBI.
    Chairman Carper. OK.
    Mr. Campbell. Or even just call local law enforcement if
they have any concerns at all, and somebody can start working
on that and perhaps end up rescuing someone.
    Chairman Carper. If you see something, say something. Now
we have the number. Thank you. Say it again.
    Mr. Campbell. It is 1-800-CALL-FBI.
    Chairman Carper. Thank you. Ms. Gannon.
    Ms. Gannon. Thank you. I would just like to state that the
Department is fully committed to this issue. It is one of the
Attorney General's priority goals as part of the Vulnerable
People Priority Goal. We are committed to investigating this
crime, prosecuting the offenders, and providing victims the
services that they need.
    Chairman Carper. All right. Thanks.
    Mr. Dinkins, a short statement, please.
    Mr. Dinkins. Sir, awareness, awareness, awareness. And
thank you for having this hearing to bring awareness to this
issue.
    Chairman Carper. Thank you. And my thanks to Senator
Heitkamp and Senator Chiesa for making sure I was aware of the
importance, more aware of the importance of this. Judge Hill.
    Ms. Hill. Thank you for having us. Most of the Federal
Government's efforts as well as State efforts are based on the
three P's: prevention, protection, and prosecution. I think
this hearing has revealed that there has to be----
    Chairman Carper. Say those again, the three P's. Those are
good.
    Ms. Hill. Prevention, protection of the victim, and
prosecution, and this hearing has revealed what others have
already said before me. We need to have a fourth P:
partnership. That is the way we are going to be able to really
fight this and end modern slavery.
    Thank you.
    Chairman Carper. Those were great closing statements. Thank
you all.
    Again, you are going to be asked some additional questions
for the record. I would just ask that when you receive those
that you respond to them as promptly and as fully as you can.
We are really grateful for your being here and for the work
that you do. Thank you so much.
    Now with that we will bring our next panel forward. Thank
you.
    We want to welcome our second panel today, and I am going
to give very brief introductions for each of you. We are happy
to see you. How many of you, raise your hand, were you able to
be here for part or all of the first panel? Well, that is
great. That is excellent.
    Our first witness today is John Farmer, Jr. He became dean
of the Rutgers School of Law--and I am tempted to say ``New-
ark'' but we know it is ``New-irk,'' New Jersey, in July 2009.
In April 2013, he was appointed to serve as Senior Vice
President and General Counsel of Rutgers University. His legal
career has been service in high-profile government
appointments, private practice, and teaching and law school
administration. Mr. Farmer began his career as a law clerk to
Associate Justice Alan Handler of the New Jersey Supreme Court.
I am sure that the two of you know each other pretty well.
Welcome.
    Our next witness--and I am going to probably screw this one
up--Suzanne--I am pretty good on your first name, but it looks
like ``Koplinger,'' ``Koplinjer''?
    Ms. Koepplinger. Koepplinger.
    Chairman Carper. ``Caplinger.'' ``Cap.'' OK. Executive
Director of the Minnesota Indian Women's Resources Center. Ms.
Koepplinger serves on a number of boards, including the
American Indian Community Development Corporation as a
consultant for the Office of Victims of Crime Training and
Technical Assistance Center. She is also one of 15 national
leaders selected for the 2011-12 Move to End Violence
Initiative hosted by the NoVo Foundation. Welcome. Nice to see
you.
    Next, our third witness is Lisa Brunner, Program Specialist
for the National Indigenous Women's Resource Center. Ms.
Brunner has worked in the domestic violence and sexual assault
field for over 15 years and is also Executive Director of a
nonprofit organization whose work addresses violence against
Native Americans and Alaska Native women. Ms. Brunner has
advocated on the local, State, national, and international
levels to raise awareness about the violence against Native
women within tribal communities, something that Senator
Heitkamp has discussed with me earlier.
    The final witness is Mr. Daniel--how do you pronounce your
last name?
    Mr. Papa. Papa.
    Chairman Carper. Mr. Papa is a world history and government
teacher at Jefferson High School in Jefferson Township, New
Jersey. He is the director of Project Stay Gold, a student
movement to abolish modern-day slavery. Under Mr. Papa's
leadership, his students have recently launched a new campaign
called ``Not on Our Turf'' to raise awareness of human
trafficking surrounding the Super Bowl, which is being held in
New Jersey next year.
    All right. Please proceed. Your entire testimonies will be
made part of the record, and so, Mr. Farmer, if you want to
lead us off, we will get going. Thank you. And, again, I want
to especially thank my colleagues Senator Heitkamp and Senator
Chiesa for their encouragement and recommendation of witnesses
for this hearing, which I think has just been very helpful, at
least to me, and I think to a lot of us. Thank you. Mr. Farmer.

TESTIMONY OF JOHN J. FARMER, JR.,\1\ SENIOR VICE PRESIDENT AND
UNIVERSITY COUNSEL, RUTGERS, THE STATE UNIVERSITY OF NEW JERSEY

    Mr. Farmer. Thank you, Mr. Chairman. I want to thank the
Committee for inviting me here today to speak about human
trafficking, one of the most important and significant civil
and human rights issues of our time. Human trafficking is an
issue that, like terrorism and drug trafficking, challenges
both the categories we use to think about crime and,
ultimately, the very structure of law enforcement itself.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Farmer appears in the Appendix on
page 83.
---------------------------------------------------------------------------
    It is also an issue that, like terrorism and drug
trafficking, has touched my career at different times and in
different ways. I served as New Jersey's Attorney General over
a decade ago when the law enforcement community first became
aware of what we now call human trafficking on a scale that
transcended local, State, and national boundaries. New Jersey
conducted one of the first undercover investigations of East
European prostitution trafficking to bars and massage parlors
and cooperated in an investigation of sweatshop labor
conditions. Through these efforts, we had an early glimpse of
the international dimensions of the trafficking issue. It was
clear even then that this was an issue that defined ideological
categorization even as it defied geographical boundaries. It is
a tribute to our system that the issue has unified politicians
as diverse in their orientation as Rep. Chris Smith of New
Jersey, who sponsored pioneering Federal human trafficking
legislation in 2000, and President Obama, who echo each other
in recognition of its evils.
    Last year, Rutgers Law School in Newark, where I was
serving as Dean--I am currently on leave from that job so that
I can serve as General Counsel of the university--hosted a
conference on human trafficking. That conference, which we
hosted in partnership with the Bergen County Prosecutors Office
and Seton Hall Law School, was the second annual event intended
to highlight the most serious criminal law issues of our time;
it followed a symposium on cyber crime in 2011. The human-
trafficking symposium brought home to me how far we have come
in combating human trafficking, but also how far we have to go.
I would like to highlight both issues in my testimony this
afternoon.
    First, there is no question that our States, Nation, and,
to a lesser extent, the world have come a long way in terms of
both awareness and action. In the 1990s, as awareness was
beginning to dawn, we were as likely to see the women who were
being trafficked as criminals as we were to see them as
victims. To a lesser extent, this is still an issue. But in the
intervening years, as the magnitude of the problem we face
became clear, awareness has also grown and, with it, the tools
available to law enforcement to combat the problem have
multiplied. A few recent real-world examples should suffice to
make the point.
    Earlier this month, a prostitution ring operating out of
Lakewood, New Jersey, was taken down. The women involved, who
were all from Mexico, were reportedly promised jobs as house
cleaners or baby sitters and lured across the border. Prior to
the recognition of trafficking as an international law
enforcement issue, the problem of prostitution in Lakewood
would likely have been seen as an issue strictly for local or
county or, at best, State law enforcement. Now, however, law
enforcement has become accustomed to going beyond the local
manifestation of criminal activity to the underlying and
broader issues. The Lakewood ring, for example, is alleged to
have been part of a broader ring operating out of New York and
other surrounding States, with additional ties to Mexico
itself.
    This case follows closely upon the announcement in July
2013 of the arrests of 150 alleged traffickers and the recovery
of 105 sexually trafficked children between the ages of 14 and
17 in the largest nationwide crackdown in history. Operation
Cross Country took place in 76 cities across the country and
involved the cooperative efforts of 4,000 law enforcement
officers in literally dozens of local, State, and Federal law
enforcement agencies. In my home State of New Jersey, 70
arrests resulted, mostly in the area around Atlantic City. This
kind of effort and cooperation was inconceivable back in the
days when we did not recognize the scope of the problem.
    Such complex investigations reflect more than just growing
awareness; they also reflect substantive changes in the law and
in the structure of law enforcement. According to the Polaris
Project, some 39 States have passed anti-trafficking statutes
as of August 2013. Under the leadership of Senator Chiesa, in
his prior role as Attorney General of New Jersey, our State
passed a cutting-edge anti-trafficking statute earlier this
year that has been highlighted by the Polaris Project as a
model for the Nation. The New Jersey legislation treats
trafficked people as the victims that they are, making it
easier for them to expunge convictions, to seek assistance, and
to serve as witnesses. It builds on the existing criminal
statutes to make it easier to reach trafficking networks.
Senator Chiesa also as Attorney General created a Human
Trafficking Office within the Division of Criminal Justice and
issued a statewide law enforcement directive ordering an
increase in trafficking investigations and prosecutions, an
increase in law enforcement training, and an increase in
services available to victims.
    Trafficking has also been highlighted at the national level
by the American Bar Association (ABA), which identified human
trafficking as its signature issue for 2012, and by the Uniform
Laws Commission, which adopted a Uniform Act on Human
Trafficking in June 2013. This uniform act was approved by the
ABA at its annual meeting in San Francisco in August. The
adoption of a uniform State law will be a significant step as
it will minimize the potential confusion and disparate
treatment of both victims and perpetrators that could arise
from differing laws in multiple jurisdictions.
    We have, in short, come a long way in recognizing the scope
of the trafficking problem and in aligning our laws and the
structure of law enforcement to meet the threat to human
liberty and the insult to human dignity posed by human
trafficking. The question, then, is what remains to be done.
What are the short-term threats and the long-term solutions? In
the balance of my time, I would like to highlight a short-term
threat and three areas in which more progress needs to occur.
    The highest profile short-term threat--and a real test of
the new laws and structure of our anti-trafficking efforts--
will come with the festivities that will envelop New Jersey and
New York surrounding the 2014 Super Bowl. Although the numbers
are debated, experience has demonstrated that high-profile
events like the Super Bowl attract an upsurge in human-
trafficking incidents. One woman, who was enslaved as a child
and now works to eradicate child prostitution, estimated that
she would be expected to have sex with over 20 people per day
during Super Bowl week. Considering the most effective ways to
prepare for the Super Bowl will be a good way to talk about
next steps in combating trafficking generally.
    First, although we are on the road to having the right
laws, having the right laws is a major achievement, but it will
not be sufficient. The devil will lie in the details of the
enforcement of those laws.
    Second, because human trafficking is a crime that respects
no boundaries, the geographic and bureaucratic boundaries that
exist between and among law enforcement agencies themselves
must be overcome. This has become, in an age of transborder
crimes like terrorism or money laundering or illegal arms
smuggling, the most challenging issue for law enforcement. The
reality is that our law enforcement structure, with its
emphasis on local police departments, augmented by statewide
and Federal law enforcement, is largely a product of an age
when threats were overwhelmingly local and isolated. The
frustrations law enforcement experience, for example, in
solving unsolved homicides is largely a function of the reality
that law enforcement is trapped within the boundaries that do
not constrain criminals.
    A new kind of structure is required to cope with this
reality. I am aware that the effectiveness of fusion centers in
fighting terrorism has been controversial in Washington. My own
view is that they are absolutely essential to effective law
enforcement in a borderless criminal environment. I have
visited the centers in New Jersey and in Las Vegas and have
spoken with fusion center leaders from around the country.
While they are, as a group perhaps too autonomous, they are in
my view nonetheless essential, for they bridge a critical gap.
In human trafficking, as in other borderless crimes, the scope
of the conspiracies may transcend boundaries, but the first
evidence of criminal conduct is likely to occur locally. Local
reports of suspicious activity, reported to fusion centers
capable of sifting and collating the intelligence, can be
essential to identifying and interdicting the potential
criminal conduct. Without fusion centers, or something like
them, we have no hope of taking advantage of the street-level
acumen of the vast majority of law enforcement officers.
    This brings me to my final point of emphasis: awareness and
training. If our local law enforcement officers are not trained
adequately, they may not know to report suspicious precursor
activity so that the dots can be connected. The Suspicious
Activity Reporting (SAR) initiative undertaken by the Justice
Department and the Department of Homeland Security--which I
assisted in developing by conducting roundtables in Denver,
Boston, and Chicago--in which precursor conduct and other
indicators of criminal activity are identified in training
modules designed to guide discretion toward objective factors
such as conduct and away from inappropriate indicators such as
race--afford a useful template that could, in my opinion, be
adapted easily to the human-trafficking context.
    Finally, in my view, the suspicious activity reporting
concept must be extended beyond law enforcement to the general
public. Hotel workers, for instance, if properly trained to
look for the signature conduct of human trafficking, might be
in the best position of all to report criminal activity. In New
Jersey, training in human trafficking is, in fact, being
extended to the hospitality industries in anticipation of the
Super Bowl. This kind of training should occur nationwide, in
my view.
    Human trafficking, like terrorism and other transborder
crimes, challenges us to adapt our laws and our government
structures to make our own borders irrelevant. Thanks to the
work of Senator Chiesa and others, we have put the right laws
in place, and we have begun to raise awareness. A further
commitment to fusion centers and to initiatives like suspicious
activity reporting will be an important next step, in my
opinion, in enabling us to eradicate human trafficking.
    Thank you again for your invitation to share my views.
    Chairman Carper. Mr. Farmer, thank you very much. Ms.
Koepplinger.

   TESTIMONY OF SUZANNE KOEPPLINGER,\1\ EXECUTIVE DIRECTOR,
            MINNESOTA INDIAN WOMEN'S RESOURCE CENTER

    Ms. Koepplinger. Chairman Carper, Ranking Member Chiesa,
Senator Heitkamp, thank you very much. On behalf of the women
and children we serve at the Minnesota Indian Women's Resource
Center in Minneapolis, I want to thank you for this opportunity
to bring to your attention an egregious human rights violation
that is being perpetrated against vulnerable Native American
Children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Koepplinger appears in the
Appendix on page 91.
---------------------------------------------------------------------------
    Sex trafficking of our children is a growing concern. In
2009, my organization published the first research in the
country to analyze the scope of sexual exploitation of any
demographic group. Copies are provided to you. The Shattered
Hearts report found disturbing patterns of Native women being
targeted by traffickers.
    For example, of women and girls screening into direct
service programs during this study, 40 percent of the women
reported some involvement in commercial sexual exploitation,
and 27 percent reported activities defined as sex trafficking
under the TVPA.
    Our current program for Native girls is screening for risk
factors and involvement. We have found that almost three-
quarters of the girls who are coming into our program have
experienced long-term homelessness and had a family member
diagnosed with mental illness and had experienced harassment,
either physical or sexual violence. The same percent, 86
percent, also had a mental health diagnosis themselves, had
child protection involvement, and 86 percent had experienced
exposure to the sex trade. That is no coincidence.
    At the 6-month followup, this program is really finding
good results. About three-quarters of these girls were now
getting housed safely and receiving mental health care
themselves. Our program is the only one of its kind that is
serving Native girls with a culturally strength-based service.
It has a wait list, and we are receiving more recommendations
and referrals from law enforcement officials every week.
    We continue to receive reports that Native girls are being
targeted for recruitment by traffickers to the oil fields of
North Dakota and being sold in the ``man camps.'' One alleged
incident involved a 14-year-old Native girl who was reportedly
sold to 40 men in one night. One 15-year-old girl in our
program has told us that her brother's best friend has
repeatedly tried to get her up to the man camps because, as he
told her, ``You can make us a lot of money, honey.''
    We also know that boys and gay, lesbian, bisexual,
transgender and questioning (GLBTQ) or our ``Two Spirit''
relatives are also being perpetrated against, but we do not
have any data. We recognize that they are vulnerable, and more
research needs to be made into this population.
    We believe that the data we have is only a snapshot, a
small portion of the true numbers being trafficked for a number
of reasons. The widespread normalization of sexual violence in
American Indian communities has numbed many youth to the point
where they minimize and rationalize what is happening to them
just as domestic violence victims do. Some girls are gang raped
by Native Mob or other local street gangs and live in fear of
the consequences of snitching. Methods of recruitment can
involve ``guerrilla pimping,'' which is essentially gang rapes
and brutal beatings, or ``finesse pimping,'' which is much more
difficult to detect and interrupt. This is a grooming process
and has a manipulative pattern similar to domestic violence
perpetration, where the initial relationship is loving but
becomes increasingly more controlling, until the end result is
the girls are caught up in a web of abuse and violence that
they cannot get out of. Drugs are often used to ensure
compliance.
    Most of these girls have multiple risk factors such as
homelessness, early sexual abuse, and parental addiction or
mental illness. Willingness to report or cooperate with law
enforcement is rare due to the lack of secure housing and the
complex traumas that these children suffer from. As they are
reluctant to report to law enforcement, they are not counted in
the national data sets as trafficking victims. The current
requirement to make a law enforcement report and be certified
by law enforcement in order to be counted as a trafficking
victim is hindering our ability to get a true snapshot of what
the scope of the problem is.
    The damage to the victims is severe in both human and
economic terms. Our 2012 research report, ``Early Intervention
to Avoid Sex Trading and Trafficking of Minnesota's Female
Youth: A Benefit-Cost Analysis,'' found the quantifiable damage
to a girl recruited into sexual slavery includes traumatic
brain injury, damage to reproductive systems, and injuries from
violent assaults. Mental health issues such as Post-Traumatic
Stress Disorder (PTSD) and dissociative disorders are common.
Yet we cannot quantify the damage to a child's spirit, to her
self-esteem, to her family or her community.
    This analysis shows a definitive return on investment to
the taxpayers of Minnesota of $34 for every $1 that is invested
in early intervention and prevention services. We know what
works, and we have the evidence that it not only saves lives
but saves taxpayer dollars. It is now a matter of
prioritization.
    Since the publication of our Shattered Hearts report, my
organization has engaged our local community and tribal
partners in solutions. For example, the Fond du Lac Band of
Lake Superior Chippewa is working to collect more data and
create systemic responses to trafficking. I have conducted
multiple trainings across the country, including with the
Choctaw Nation of Oklahoma and the Fort Berthold Reservation in
North Dakota. Across all systems, there is a need for more
awareness of the tactics being used by perpetrators and for
technical assistance in identifying and responding to the
crime.
    Again, in North Dakota, tribal sexual assault advocates are
telling us of multiple young women who are reportedly being
victimized by traffickers but are too terrified to report the
crime. The Bakken oil fields are indeed a boom to the economy
of the region and have also created an explosive market for sex
traffickers who find vulnerable victims among Native American
children. This presents an opportunity for the businesses that
are profiting there to step into their leadership role. There
is a great need for more law enforcement, more victim services,
more awareness, and more education. I hope that the industry
will seize this opportunity to invest in the wellness of the
entire community where they now live and work.
    In Minnesota, our Human Trafficking Task Force has created
a strong multidisciplinary response. In 2011 we passed a safe
harbor bill, which recognizes juveniles sold into sex as
victims of a crime and aligns the State's statute with the
Federal TVPA. Last year, we presented to the State legislature
a model services and housing program called ``No Wrong Door,''
which is the result of a comprehensive team approach analyzing
how we can better identify youth and get them into protective
services and healing services rather than the juvenile justice
system. We were successful in securing a modest amount of
funding to begin that program, but we need additional resources
to fully complete the data analysis and the training
requirements that are part of the plan. And we are collectively
beginning to design more effective approaches to reducing the
demand for sexually exploited children, for without the demand
there would be no supply.
    So again I want to thank the Committee Members for their
leadership in holding this hearing. No person should be viewed
as a commodity. We need more resources, and we need to stop
this as a market-driven enterprise and go after the demand
where it starts.
    Thank you very much.
    Chairman Carper. Thank you so much, Ms. Koepplinger.
    Ms. Brunner, please proceed.

  TESTIMONY OF LISA BRUNNER,\1\ PROGRAM SPECIALIST, NATIONAL
               INDIGENOUS WOMEN'S RESOURCE CENTER

    Ms. Brunner. Boozhoo.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Brunner appears in the Appendix
on page 409.
---------------------------------------------------------------------------
    Chairman Carper. Boozhoo.
    Ms. Brunner. Thank you for the invitation to be here to the
Committee Members, thank you to Senator Heitkamp and your
office reaching out with the invitation for the National
Indigenous Women's Resource Center to be here.
    Human trafficking of Native women in the United States is
not a new era of violence against Native women but, rather, the
continuation of a lengthy historical one with the colonization
of America through wars, forced removal from their homelands to
reservations, boarding schools, and forced urban relocation.
Domestic human trafficking in the United States has a
longstanding history.
    Native women experience violent victimization at a higher
rate than any other U.S. population. Congressional findings are
that Native American and Alaska Native women are raped 34.1
percent, more than 1 in 3, will be raped in their lifetime; 64
percent, more than 6 in 10, will be physically assaulted.
Native women are stalked more than twice the rate of other
women. Native women are murdered at more than 10 times the
national average of the United States. Non-Indians commit 88
percent of the violent crimes against Native women.
    Given the above statistical data and the historical roots
of violence against Native women, the level of human
trafficking given the sparse data collected can only equate to
the current epidemic levels we face within our tribal
communities and nations.
    As an enrolled member of the White Earth Ojibwe Nation in
Minnesota, I live, work, and raise my children on my
reservation. I have worked for over 15 years addressing
domestic violence and sexual assault of Native women and have
witnessed and heard countless stories of human trafficking
occurring to the point that we have girls as young as 12 years
old who are victims. With the introduction of heroin, we now
have an epidemic of the same age group, and women who are
trafficked now have heroin needles in their arms. Native women
and girls are sold for $20 worth of heroin.
    We have mothers who call local county sheriff departments
reporting their daughters missing only to be told, ``We have
better things to do with our time,'' or, ``Why don't you be a
mother and know where the hell your daughter is.''
    It is difficult, given the jurisdictional complexity of the
566 federally recognized tribes in the country with non-Public
Law 280, Public Law 280, 638 Contract, Land Claim Settlement
States, Oklahoma's checkerboard, and Alaska Native villages. To
add to the complexity, if the perpetrator is non-Native, then
the tribes and Alaska villages do not have criminal
jurisdiction.
    With the recent wide-range impact of extractive industries
such as oil fracking and pipelines is predatory economics at
its worse for the Fort Berthold Nation in North Dakota and Fort
Peck Reservation in Montana. With the fracking of the Bakken
formation comes ``man camps.'' The victim advocates responding
to calls for service on Fort Berthold said there has been a
doubling and tripling of numbers of sexual assaults, domestic
violence, and human-trafficking incidents since 2008.
    The multiple layers of issues that have come to the
forefront are the lack of documentation of these man camps.
Emergency services often cannot find their locations, and since
they are located in isolated and desolate areas, there often
are no cell phone services available. There are two types of
man camps: documented and undocumented. Undocumented camps are
often 50 to 100 trailers that a rancher or farmer has set up on
his land to rent out and make money. These undocumented camps
present a special problem for emergency services and
organizations since they do not exist on a map or have
addresses.
    The other issue involved with the man camps in Fort
Berthold is lack of monitoring and registration of sex
offenders whether they are in documented or undocumented man
camps that pose a serious threat to the safety of women and
children in the area.
    In Montana, the Bakken oil boom has impacted the largest
reservation, Fort Peck, and residing counties have experienced
both a population and crime explosion.
    The majority of employees from the oil rigs are not from
Fort Peck tribes or Roosevelt County or even from Montana.
There have been documented increases in drug use and human
trafficking, theft, alcohol-related incidents, and assaults
within the last year. Law enforcement response, tribal domestic
violence/sexual assault services, and medical responses to
these crimes have tripled in the last year.
    Within northeastern Montana there are currently three man
camps with several more only 70 miles away in the neighboring
State of North Dakota. Many tribal advocates have responded to
victims that have been trafficked at the man camps often
preying on young Native women. Groups of men from the man camps
use free access to drugs and alcohol as a method of coercion
for young Native women to ``get in the car'' and go party. This
has resulted in 11 young Native women ranging from the ages of
16 to 21 years of age reporting rape, gang rape, and other sex
acts. The majority of these victims are afraid to report due to
fear and shame.
    The Fort Peck Tribes Sex Offender Registration and
Notification Act (SORNA) program reports that 1 year ago there
were 48 registered sex offenders. Now there are over 600
registered sex offenders. The struggle has been that non-Native
sex offenders do not recognize the tribal jurisdiction and feel
they do not have to report to the tribal SORNA program.
However, the U.S. Marshals and other law enforcement agencies
have assisted in gaining registration of known sex offenders on
the tribal registry.
    Another aspect of the domestic human-trafficking issues in
the United States and Tribal Nations is the U.S. Adoption
Industry. An article in Indian Country Today titled
``Trafficking of Native Children: The Seamy Underbelly of the
U.S. Adoption Industry,'' brings to light the practice of
selling Indian infants and children to the highest bidder which
brings in revenue for lawyers from $25,000 to $100,000 per
child. In this article, it is stated that in 2012, 50 Native
children were adopted out from North Dakota to South Carolina.
These adoptions are done without the tribes' knowledge or
consent or that of the biological fathers.
    To really gain insight to domestic human trafficking in the
United States, one must examine the many sectors in which this
is facilitated, whether it be extractive industries, pimps,
gangs, cartels, family members, or lawyers working in the
adoption industry. Many different avenues must be examined and
taken into account to fully understand what leads to this
epidemic of human trafficking that not only impacts Tribal
Nations and Alaska villages but all citizens of this country.
    I am a program specialist with the National Indigenous
Women's Resource Center. Our role as an organization is to
serve as a National Indian Resource Center that provides
technical assistance and training, resource development, policy
development, research activity, and public awareness that also
seeks to enhance Native American and Alaska Native tribes,
Native Hawaiians, Tribal and Native Hawaiian organizations to
respond to the violence against Native women.
    Thank you for your time.
    Chairman Carper. Thank you for your time, and thank you for
just terrific testimony. Compelling testimony.
    Mr. Papa, welcome.

    TESTIMONY OF DANIEL PAPA,\1\ DIRECTOR, PROJECT STAY GOLD

    Mr. Papa. Good afternoon. I would like to thank the
Committee for this opportunity to share the great work that my
students have done, and I especially would like to thank
Senator Chiesa for his commitment to fighting human trafficking
and also his support of the modern-day student abolitionist
movement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Papa appears in the Appendix on
page 412.
---------------------------------------------------------------------------
    As we gather here today, we have heard the statistics: 27
million slaves on Earth, more slaves than ever before, 100,000
people trafficked throughout the United States. In the face of
this global crisis, my students have proposed a solution, and I
believe that today is also about a day of solutions and a day
of collaboration.
    I believe that a solution to human trafficking within our
country is inside our classrooms. I am proud to represent the
great work that the students have done in my school.
    The journey begins in October 2010. I was teaching about
the introduction of slavery in America's past, and while
teaching that, I made a connection to modern-day slavery. I
have observed as a teacher that young people have a sensitivity
to injustice.
    As I have taught issues of injustice in the past throughout
history, whether it has been the Holocaust, whether it has been
slavery, I have noticed a different level of engagement in the
room. Young people have a sensitivity, and that sensitivity to
injustice has fueled Project Stay Gold.
    While I made the connection, I had a student come to me and
say, ``Mr. Papa, we have to do something about this.'' With
that, we had 35 students sign up, and we organized an awareness
campaign inside of our school. The 35 students created a
PowerPoint lesson, and they went into the sixth, seventh, and
eighth grade social studies classrooms, and they taught a
lesson on modern-day slavery and human trafficking. They
created posters and posted them around the school. They made
announcements on the morning announcements. They sold
wristbands that say ``Abolitionist'' on it. The first day that
we actually had the wristbands, we sold 400 wristbands in 24
hours.
    We had teachers coming up to us from all around the school
saying, ``What are these posters about? What are these kids
talking about? What is this issue?'' Our young people are
educating the educated. It was an unbelievable experience.
    The students were so moved by the experience of sharing and
exposing this crime. They came to me and they said, ``Mr. Papa,
we have to do more. What more can we do?'' And so with that, we
launched the website, ProjectStayGold.org. We created videos
where the students spoke to the issue and they raised
awareness. They used statistics, and so on, that they have
learned and we launched these videos. And through that, the
students were invited to many different events. They presented
2 years in a row at National Human Trafficking Awareness Day in
Trenton, New Jersey, at our State Capitol, and that is where we
met Senator Chiesa. The students also presented at the
Department of Health and Human Services Awareness Day in New
York City. They have presented at colleges, universities,
public libraries, churches, and other communities.
    With the Super Bowl coming to our State, students have
launched a campaign called ``Not on Our Turf'' (students for a
traffic-free Super Bowl). They have launched a website. They
have created a video, and they have taken to social media as
well.
    Part of their vision is they have also organized a student
summit on October 15 at Caldwell College in New Jersey, where
they have invited students from all over the State to come, not
only to learn the issue, but they are going to give students
action kits and action packs that they can go back to their
school and launch an awareness campaign with the Super Bowl
coming to our State.
    One of our students has initiated a petition on Change.org.
He initiated it 3 weeks ago, and within 3 weeks he has 4,000
signatures calling for the National Football League (NFL) host
committee, the Super Bowl host committee, to address the issue
of human trafficking. And also part of their vision for Not on
Our Turf Super Bowl Campaign is to create public service
announcements that could be on radio and also on cable TV,
where they will speak to the issue and raise public awareness.
    I also want to mention that part of what our students are
doing, it is not just awareness. Educating young people is
prevention, and what we have seen, actually our students have
gone out into other schools, they have gone to other middle
schools and high schools, and they have taught lessons to
others, and others schools are now joining in this effort. And
what we have found is that, as young people educate young
people, this is a solution. This is part of a solution.
    There are three ways that I believe the Federal Government
and State and local governments can partner with schools and
with young people.
    First, as we have mentioned already today, I believe that
Federal, State, and local governments could work with the
Departments of Education on bringing more of an awareness to
the way harassment, intimidation, and bullying education has
come into the schools, education regarding human trafficking.
    I also believe that, grants could be offered to student
movements who meet certain criteria to bring attention and
awareness to human trafficking.
    And I just also believe that government supporting the
movements of young people is a very powerful step toward
prevention as well.
    Thank you.
    Chairman Carper. That is pretty amazing work that you are
doing there, Mr. Papa.
    Mr. Papa. Thank you.
    Chairman Carper. Thank you.
    On the first panel that presented, I asked each of the
witnesses to talk about underlying causes. And we talk a lot
about symptoms, but underlying causes, I am going to ask each
of you to take a shot at that, and we will start with you, Mr.
Papa. Speak to us about underlying causes and how we might
address this huge problem by going after underlying causes. And
just be fairly brief, if you would.
    Mr. Papa. Sure, absolutely. Thank you. My students have
identified one underlying cause, and that is the acceptance of
``pimp culture'' in America, the idea that a Grammy was awarded
to a song called P-I-M-P, Pimp; the fact that MTV has a show
called ``Pimp My Ride.'' My students have identified a ``pimp''
as a modern-day slave owner. And I believe that if we could
educate America's youth of what a pimp really is, that could be
a No. 1 step toward prevention.
    Chairman Carper. That is a great point. Thank you.
    Ms. Brunner. Thank you. No. 1 would be poverty. Human
traffickers prey on the vulnerable, and the vulnerable are in
poverty.
    The other is the lack of education, understanding that this
is for all involved, whether it be the community members
themselves, victim advocates, law enforcement, court personnel,
judges, and schools to raise that awareness.
    The other is drugs and alcohol because this ties hand in
hand with that. Drugs and alcohol are used in order to entice
victims and the fact that our women are being sold for $20
worth of heroin on our reservation where others it may be meth,
that is significant, so addressing that issue also.
    The other is there needs to be more training for law
enforcement. When we look at our tribal law enforcement, we
look at the complexities of our jurisdictions--you listening
earlier to DHS' response and to the other lady that was sitting
in this seat, they are talking about, special attorneys and you
are talking about Federal. Well, when you look at the 566
federally recognized tribes in the country, the majority are
Public Law 280, which is not Federal jurisdiction. That is
State and counties. So the Federal Law Enforcement Training
Center (FLETC), through DHS, they created the Domestic Violence
Indian Country Training Program, which is not currently being
delivered. Currently what is being taught at the Bureau of
Indian Affairs (BIA) in Artesia, New Mexico, training our law
enforcement, is to do dual arrest. This was done September 2 by
Sergeant Greenwood at the BIA, but this is what they are doing.
They are teaching dual arrest, which is setting us back 20, 30
years. And if this is what the capacity is for the training for
law enforcement in order to respond to a massive epidemic,
which 6 in 10 of us are going to be victims of, how are they
supposed to be responding and educated on sex trafficking that
is going unnoticed? They do not know what to look for.
    Then funding to support victims; there needs to be more
help and support. Thank you.
    Chairman Carper. Thank you so much. Ms. Koepplinger.
    Ms. Koepplinger. I would agree with what has been said, and
to carry out a little bit what Mr. Papa said, it is the
hypersexualization of our culture which tells young girls that
their only value is in their sexuality and how attractive they
are. I mean, selling Halloween costumes to 9-year-old girls
that make them look, like they--how they should not look. That
is one part of it, I think.
    And I think until there is a real honest dialogue about a
culture of impunity--sex trafficking is part of a systemic
exploitation of those who have the least power; which tend to
be women and children who are not Caucasian more often than
not, although not exclusively. It has similar dynamics to
domestic violence, rape, sexual assault. It is a culture of
impunity that has largely identified females as commodities or
property. And until we have an honest dialogue about that, I do
not think we are going to make any big headway.
    Chairman Carper. Thank you, ma'am. Mr. Farmer.
    Mr. Farmer. I would agree with what Suzanne said and note
that trafficking has many faces, and there are many causes. It
is a very complex phenomenon. But what they have in common, in
my view anyway, is where there is an erosion of sustaining
social institutions whether it be the collapse of the Soviet
Union, even that caused a vacuum that the Russian organized
crime filled--or the collapse of the family in parts of America
where you have teenagers running away from home and being
victimized.
    So my experience in law enforcement is that crime fills
vacuums, and when there is a social vacuum created of whatever
kind, crime is going to fill it. And in this context, it is
filling it with our most vulnerable people.
    Chairman Carper. OK. Thank you. My next question goes back
to actually a word, one of the words that was used by, I think,
our judge a little bit earlier, and maybe a word that has been
used by one of our witnesses here. Remember the judge
mentioned--I think it was the judge who said there are three
P's she went through, and then I think she mentioned a fourth
one--partnership. I believe it was the judge who said that. And
I heard the word ``collaboration,'' and I think--was that you,
Ms. Brunner?
    Whenever I run into people who have been married a long
time, I ask them, ``What is the secret for being married a long
time, 40, 50, 60 years?'' And the best answer I have ever
gotten is the two C's: communicate and compromise. And that is
also the secret for a vibrant democracy: communicate and
compromise. I think if we are going to be successful here on
this front, there has to be a third C, and that C would be
collaboration. Collaboration.
    And as I said earlier, after Senator McCain had spoken and
asked a question or two, I mentioned this is an all-hands-on-
deck time, and that there is a shared partnership and a shared
responsibility.
    Let me ask you to focus on the Federal piece of that. Our
role in this collaboration our role in this partnership And
just speak very briefly, and then I am going to yield to my
colleagues. Mr. Farmer.
    Mr. Farmer. Well, I agree with the witness on the first
panel who indicated that the Federal cooperation has been
better in this context than in some others. I have been a
Federal prosecutor and I have been in State law enforcement,
also. And there is a tendency among Federal law enforcement to
overlook the value of State and local law enforcement and to
view themselves as sort of the be-all and the end-all.
    I think that has improved since I was in office. 9/11
helped improve that. But it is still there, and really the
intelligence on the ground is so important, especially in the
context of human trafficking. So entities like fusion centers I
think can play a vital role in bridging the gap that exists
between Federal and State and local law enforcement.
    Chairman Carper. Thank you. Ms. Koepplinger and I would ask
you to be brief, if you would, please.
    Ms. Koepplinger. I think one of the key things is that the
Federal law is really framed as a law enforcement problem, but
this is a human rights problem, and we really need to
understand the role of the advocates and the NGO's on the
ground who are serving the victims and how they can be helpful
and how their work can help identify more victims and serve
more victims. The data sets will never be complete if we do not
allow the front-line advocates to determine who is a victim of
human trafficking.
    Chairman Carper. Thank you. Ms. Brunner.
    Ms. Brunner. Real quick, I would like to see the
development of a Human Trafficking in Indian Country Task Force
that is inclusive of all Federal, State, local, but also the
NGO's and the advocates that are on the ground. Often we have a
lot of Federal people with good intentions but who have no
understanding of what we deal with in Indian country. They
speak very little to that.
    So if we could have a little bit more dialogue with that, I
would appreciate it. Thank you.
    Chairman Carper. Thank you, ma'am. Mr. Papa.
    Mr. Papa. If the average age of entry into human
trafficking in the United States is between the ages of 12 to
14, what better advocates are there than their peers who are
middle school and high school age. So I think that if the
Federal Government was able to support, through the Department
of Education, a nationwide educational program brought to the
school system, that would be an excellent step.
    Chairman Carper. Senator Heitkamp, that reminds me of that
truth campaign, doesn't it? Just a little bit of that truth
campaign on the American Legacy Foundation, which you helped
create, was all about.
    All right. Senator Chiesa, please.
    Senator Chiesa. Thank you, Mr. Chairman.
    Chairman Carper. And this will probably be the last round
of questions, but go ahead, if you will. We will go at least 7
minutes.
    Senator Chiesa. Thanks to all of you for being here, and
thanks for sharing your expertise. But, most importantly,
thanks for sharing your passion on this issue. All of you have
spoken with great passion about it because you have seen
yourselves the impact it has on the people that are devastated
by it, so thank you.
    I do want to thank in particular my friends from New
Jersey:
    Dean Farmer, who has distinguished himself at every level
of public service in New Jersey, as a line prosecutor, as the
Attorney General, as a senior aide to the Governor, and now as
the dean of our law school, jumping in to help Rutgers when
they asked him to go over and be their in-house lawyer as they
get through some struggles there. So thank you for being here.
    And Mr. Papa, whom I have now known for a little less than
2 years, but whose students really had a big impact on me. I
had done cases, and I had talked about it, but I watched young
students talk about the issue of human trafficking with such
passion and such creativity, I thought it really moved me, and
it really helped me, helped focus me on the importance of
spending my time and my energy as Attorney General and doing
everything I could to combat it, so thank you.
    Dean, you talked earlier about the SARs and the role they
can play. Can you talk a little bit about how you--I know you
talked in panels that you sat on and things that you had done
maybe in an academic setting. But talk about the role they
played when you were--when I think of those, I think of those
in financial crimes, in that context. Talk a little bit about
how you have seen--in your own mind, how that has evolved into
a tool that we should be using in this area of human
trafficking.
    Mr. Farmer. The thinking behind suspicious activity
reporting is that you do, to some extent, academic studies of
criminal conduct, and from those studies you extract objective
factors that people can look for to identify precursor conduct
that leads to crime. And then the object is to train people so
that they can spot those indicators, notify law enforcement,
notify the Federal law enforcement, or State or local, whatever
the appropriate level is, and at that point it gets filtered up
through the fusion centers and it gets proliferated through the
government. And it is a way to bridge the gap between the
different levels of government, and what it provides is a
template that can be exported from the context of terrorism to
other contexts, and there is no more important one that it can
be exported to really than human trafficking.
    Senator Chiesa. And you talked a little bit about making
sure that our boots on the ground, the people you described as
having the best instincts to recognize these cases. And one of
the things that we talked about in New Jersey was to better
prepare our law enforcement personnel. They have great
instincts. They have great commitment. What I thought we had
not done, I had not done a good enough job on was explaining to
them that it is OK to take a longer look; it is OK to drill
down a little bit further.
    Can you tell us your thoughts on that? Do you think that is
a worthwhile way for our law enforcement community to be trying
to eradicate this crime?
    Mr. Farmer. Absolutely. And, the tremendous pressure on
local law enforcement is to solve the crime that exists today,
and that discourages the longer look. And so raising awareness
that there is a longer look to take I think is critical in
dealing with State and local law enforcement.
    So once they know there is a bigger problem, as we found
with what turned into the undercover investigation of the East
European trafficking in bars and massage parlors, it started as
just a prostitution case, and then it grew. And we realized it
was a much bigger problem. And once they are alerted to that,
better investigations will follow.
    Senator Chiesa. Thank you. As the son of a retired school
teacher, Mr. Papa, I cannot say that does not influence my
respect and my admiration for all that you are doing. I have
had four or five chances to sit face to face with your students
and talk about this issue, and their level of comprehension
astounds me.
    You talked about some of the cultural things that you are
seeing. Talk to us very candidly about the way those things are
talked about in your classroom, not just by the leaders who are
involved in the programs that you are pursuing that are so
terrific, but maybe some of the kids who would be more apt to
find themselves in this situation because they do not have
either a familiar support network or they do not feel part of a
group at this school.
    You hear these conversations every day, whether it is in
the hallways or in the classrooms. Talk a little bit more about
that and how you think that is a sign that we have become
desensitized to the things that can lead us to the spot we find
where people are enslaved.
    Mr. Papa. I will never forget my second year teaching. I
had a girl come into the classroom, and she had a shiner. She
had a black eye. We obviously took the proper steps and called
the Division of Youth and Family Service (DYFS) and so on.
    A few weeks later, I noticed she was not in my classroom.
She was not there for a few days. A few days turned into a week
or two. And I asked one of her friends where she was, and she
told me that she ran away because she could not take her dad
hitting her any longer. And she was in eighth grade, and she
ran away to Pennsylvania.
    So I think that it is systemic in, I think, every school
throughout the country. And the one thing that I have seen,
though, is I have seen the ability for young people to reach
out to other young people within schools who are hurting like a
girl like that.
    Senator Chiesa. And that is the thing I would like you to
give us a little bit more information on. Your students are now
going out to other schools and educating other students.
    Mr. Papa. Right.
    Senator Chiesa. And I think that is a great thing to be
doing. Can you tell us about some of the reactions you are
having from both the students and the teachers at the other
schools that you are going to when you talk about human
trafficking?
    Mr. Papa. I do not know if this is surprising or not, but
from teachers, there is a lot of skepticism, and the students
are coming back, and they are saying, even students who are
wearing the wristbands, they have initiated conversations with
parents or family members, and the parents or family members
say, ``What are you talking about? This does not exist. This is
not true.''
    So it seems as if the students are really on the front
lines of even trying to convince adult communities. As Mr.
Farmer mentioned, when we did an awareness night at our school
back in January, we had two police officers from our town come.
And afterwards they came up to us, and they said, ``We had no
idea that this even existed. We did not know anything about
this until we came here tonight.''
    So I think the reaction is pretty shocking. The main
reaction, though, which is the reaction of success, is the
ability for a young person to communicate to another young
person. And I think, the most important step in education is
not what we learn, but it is what we do with what we learn. And
if our young people are able to educate their peers and teach
them that it is not enough just to know, but it is more than
that; it is about doing something with what you know, starting
a campaign, starting a Twitter account, starting a Facebook
account, and really getting the word out. I think that is the
biggest key.
    Senator Chiesa. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Carper. You bet. Senator Heitkamp.
    Senator Heitkamp. You all are just excellent, and you have
just done such great work in this area, and you really have put
a human face on this problem. I think the last panel was all
about kind of the bureaucratic response, assuming everyone
knew. But you are at that level where you are dealing every day
with victims, and you are dealing every day with this problem,
and looking at it from a systemic, long-term view, because this
is not going to change overnight. This is a problem that has
been with us since the beginning of humanity. And it is
something that I think we thought we eradicated, kind of like
eradicating smallpox or polio, and then all of a sudden it
comes back because we lose focus and we lose attention and we
think it is OK, because it is not us, because it is their kids
not our kids, because it is those people and not all of us.
    And so we are all in this together, and just from every one
of you, I just feel a lot more optimistic than I did before I
got here knowing that you are out there thinking about it,
thinking about it in fusion centers and how you are going to
look at jurisdictional challenges, thinking about how you are
going to educate kids and not let them be victims, and then
thinking about the special needs of very vulnerable
populations.
    Dean Farmer, if you think jurisdiction is complicated
between you and New York City, you try and figure it out in
Indian country and a large land-based Indian center.
    I want to raise another symptom of this problem--especially
in Indian country, and I would like both of you to respond to
an observation that I have, which is, as we look at the high
rate of suicide, young teenage suicide, on the reservations and
really off the reservations within our Native people
population, how much of that do you think is related to abuse,
neglect, trafficking?
    Ms. Koepplinger. Well, I do not have any good data, but I
think that there is a very strong correlation. We see
extraordinarily high rates of child abuse in many of our
families. That historic trauma, multi-generational trauma that
so many families experience has not really been unpacked, and
until we understand how to heal whole families, we are going to
continue to struggle with this.
    I think the suicide rate is absolutely linked with alcohol
and drug addiction and mental illness, and those in many cases
are an offshoot of early sexual trauma that has not been dealt
with and the child has not had a chance to heal. So I think
there is a strong correlation.
    Ms. Brunner. I would agree with Suzanne. I would say a
majority of the suicides of our children is due to violence,
due to child abuse, due to drugs and alcohol.
    Just last year, we had a 14-year-old girl hang herself
because she was raped. A month later, we had another 14-year-
old hang himself with a shoestring on a bathroom doorknob. And
then the following month, we had a 19-year-old girl found
hanging 3 days from a tree who was 12 weeks pregnant. The level
of suicide is at epidemic levels, and we really do need to look
at the level of the violence that is being perpetuated and
which our children are trying to navigate.
    Senator Heitkamp. If we could give the United States
Government's effort a grade in this area, I guess my question
is: What grade would you give us? And I will start with you,
Dean Farmer.
    Mr. Farmer. Why can't you just start with the teacher at
the other end? [Laughter.]
    Senator Heitkamp. He is used to this.
    Mr. Farmer. Well, I am an easy grader. I would say a B-
plus. I think the level of awareness has risen. The effort is
there. The coordination could be better.
    Ms. Koepplinger. So is this a grade on its work in Indian
country or----
    Senator Heitkamp. Well, both.
    Ms. Koepplinger. C-minus, maybe. I mean, I am encouraged. I
am seeing progress. But there is still a lot of work to be
done, particularly with----
    Senator Heitkamp. And just for maybe some of the folks who
are not as familiar with Indian jurisdiction, the Federal
Government has a unique relationship, whether it is the trust
and treaty relationship or whether it is primacy in
jurisdiction. And you both raised the specter of the problems
that we have right now in Fort Berthold. We could use five FBI
agents in Fort Berthold right now. We have 3,000 pending
criminal cases in tribal court. A vast majority of those cases
are drug related. But we know we have these ongoing problems.
So just so we know that what we are grading here is a different
jurisdictional challenge. Lisa.
    Ms. Brunner. I would have to say on a national level a C,
just because it was only a few years ago that Suzanne and I,
with her invitation, were at HHS talking with their human
trafficking division where the funding that was available was
not available to address domestic, it was only international.
So to see the change occurring is good.
    For Indian country, I give it a D just simply because of
the jurisdictional issues, the lack of funding coming into
Indian country, the lack of education and awareness and
training for law enforcement, and building those collaborative
relationships that are necessary between tribal, State, and
Federal agencies to have a united front to address this issue.
    Thank you.
    Senator Heitkamp. Thank you. Mr. Papa.
    Mr. Papa. From my perspective, I would say a B. I think
that even what we are doing here today, the fact that President
Obama has made speeches about it, there has been such a greater
attention brought, as I have seen even over the last 3 years
from the Federal Government as I followed it.
    However, I really believe very strongly that there needs to
be far more outreach into the school systems in order to
prevent and educate young people of their risk factors and the
warning signs, especially from Departments of Education, at the
Federal and State level as well.
    Senator Heitkamp. I just have a few minutes, and I just
want to make a comment about victimization and about the work
that we have done over the years dealing with victims. It is
not easy for victims to come forward. It is not easy for
victims to talk about their victimization. It is not easy
because there is a lot of shame, especially in Indian country
with young girls who may have used drugs and alcohol and ended
up in a very bad situation.
    And so we need to be more concerned about how we deal with
victims so that they know that there is justice for them,
regardless of what their behaviors were. And I think there is a
lot of blaming that goes on, and we need to step back and spend
some time talking about how we are going to deal with this
problem from a holistic standpoint.
    I just thank you all for putting a very human face on this
and some great expertise. I think you gave us some great ideas.
    Chairman Carper. Amen. Senator Heitkamp, I just mentioned
to Senator Chiesa, the two of you came up with this idea, and I
really did not know fully what to expect. This has been a
terrific hearing. We have had great witnesses. I thank you both
for recommending several people to testify and for really
providing leadership. Although you are both fairly junior in
the U.S. Senate, you have really provided great leadership on
this point.
    I have said, Senator Chiesa, in the first panel, we gave
the first panel a chance to make brief closing statements. I am
going to ask Senator Chiesa to make a very brief closing
statement. I am going to ask you if you would make just a very
brief closing statement after Jeff, and then we will wrap it
up. Thank you.
    Senator Chiesa. Thank you, Mr. Chairman.
    It is hard to believe we are talking about people as
property in 2013, but we are. But I think it is encouraging
that, thanks to the Chairman's leadership and people like
Senator Heitkamp, we are able to talk about it at the highest
levels of government so that we bring attention to it--in our
schools, in our communities, everywhere that we can.
    So I really appreciate the passion that all of you brought
to this issue today. I really appreciate the chance, Mr.
Chairman, to talk about this issue today. And I hope that we
will continue to talk about it and that everybody who is
sitting in our chairs will continue to listen so that we can
make sure that people understand it is out there and that we
are using every resource we can and considering every
community. I come from a prosecutor's mentality because that is
where I worked. From a victim's perspective as well. All of
these perspectives are really important so that we get to a
solution that addresses all of it, eradicating it, deterring
it, and returning some quality of life to the victims.
    So thank you.
    Chairman Carper. Thank you. Senator Heitkamp.
    Senator Heitkamp. I am reminded of a story of a gentleman
that I used to work with in North Dakota. He was around the
juvenile justice system in North Dakota, and he did a series of
meetings across the State, and everywhere he went he got a lot
of suggestions, and a lot of times he was told what he could
not do. And they would say, ``You cannot do this, and you
cannot do that, and you cannot do this, and you cannot do
that.'' And at the end of one of these meetings, an elder lady
came up to him--actually, it was on the reservation--and she
said, ``Mr. Lick, what you cannot do . . .'' And he thought,
``One more.'' And she said, ``You cannot give up.''
    And we cannot give up on these victims. We are better than
that as a country. We are better than that as a people. We are
better than that in our humanity. And we will lose ground if we
lose focus.
    And so human slavery has never been OK. It will not be OK
on our watch. And so I want to thank the great Senator from New
Jersey and the Senator from Delaware for their allowing me to
be part of this important hearing, and thank you all again for
putting a very human face on this problem.
    Chairman Carper. Well, again, I want to thank our
witnesses. Just a wonderful panel. And thank you for your heart
and thank you for your conviction and for your steadfast
determination to make sure we do not ignore these problems,
that we say something, say something constructive, and keep
saying it until we deal even more effectively with this
problem.
    A special thanks to Senators Heitkamp and Chiesa. We would
not be here but for your encouragement.
    But, last, as my colleagues know, every Wednesday there is
a prayer breakfast. Imagine this, Democrat and Republican
Senators gather at a prayer breakfast. We read the Scripture
together. We pray together. We even sing a hymn every now and
then. I usually do not get to go because they do it fairly
early on Wednesday mornings, and I am usually on a train trying
to get here. But they asked me to speak last Wednesday, and one
of the things I mentioned was how should our faith guide us in
what we do. And the Golden Rule just rings loud and clear here
for me, and it probably does for you as well.
    The other thing I mentioned was: what is the role of
government? Whatever the problem or issue that we are facing,
what is the role of government? And I oftentimes rely on the
words of Abraham Lincoln, who said a lot of memorable things,
but he used to say, ``The role of government is to do for the
people what they cannot do for themselves.''
    There is a role here for the Federal Government, and there
may well be a role for this Committee. It is Homeland Security
and Governmental Affairs. Long before it was Homeland Security,
it was Governmental Affairs. And we have broad investigative
powers into the whole range of the Federal Government, and we
use those not just in a ``gotcha'' kind of mode, but in a way
to see how we can foster collaboration, how we can foster
greater partnership, how we can realize what is the role of
government, not just Federal, not just State, not just local,
not just law enforcement, not just nonprofits, the faith
community, what is the role of all the families, our families.
There is a shared responsibility, and this is an all-hands-on-
deck moment.
    I am encouraged, having certainly reminded us that we have
a problem here, to also realize there are a lot of things that
are working that we ought to be doing more of, and I am more
encouraged that we just might do that.
    All right. With that having been said, again, Senator
Chiesa, Senator Heitkamp, and to all of our witnesses, thank
you so much.
    Thank you. The hearing record will remain open for 15
days--that is until October 8, my sister's birthday--at 5 p.m.
for the submission of statements and questions for the record.
    With that, this hearing is adjourned. Thank you so much.
    [Whereupon, at 5:17 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
